<html>
<title> - PREPAREDNESS FOR THE 2009 WILDFIRE SEASON</title>
<body><pre>[Senate Hearing 111-128]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-128
 
               PREPAREDNESS FOR THE 2009 WILDFIRE SEASON

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE PREPAREDNESS OF FEDERAL LAND MANAGEMENT AGENCIES FOR THE 
2009 WILDFIRE SEASON AND TO RECEIVE TESTIMONY ON S. 561 AND H.R. 1404, 
      THE FEDERAL LAND ASSISTANCE, MANAGEMENT AND ENHANCEMENT ACT

                               __________

                             JULY 21, 2009



                       Printed for the use of the
               Committee on Energy and Natural Resources

                  U.S. GOVERNMENT PRINTING OFFICE
53-001                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Dalton, Patricia, Managing Director, Natural Resources and 
  Environment, Government Accountability Office..................    12
Jensen, Jay, Deputy Under Secretary, Natural Resources and the 
  Environment, Department of Agriculture.........................    10
MacSwords, Leah, President, National Association of State 
  Foresters, State Forester of Kentucky, Representing the Partner 
  Caucus on Fire Suppression Funding Solutions...................    35
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Peterson, R. Max, Retired Chief, Forest Service (1979-1987)......    40
Suh, Rhea, Assistant Secretary, Policy, Management and Budget, 
  Department of the Interior.....................................     4
Wyden, Hon. Ron, U.S. Senator From Wyoming.......................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    57


               PREPAREDNESS FOR THE 2009 WILDFIRE SEASON

                              ----------                              


                         TUESDAY, JULY 21, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:12 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

       OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. The committee will come to order. Today the 
chairman of our full committee, Chairman Bingaman is unable to 
be here at this time. So he asked me to open this morning's 
hearing.
    Today the committee looks at the preparedness of the 
Federal land management agencies for the current wildfire 
season. The heart of the problem it seems to me is pretty 
straightforward. We are having more large wildfires.
    They are more frequent. They are more extreme. Putting them 
out means spending more money on what is known as wildfire 
suppression.
    So what has happened is almost every year the Forest 
Service has to go out and spend more money on wildfire 
suppression than it has budgeted. Then it goes out and borrows 
billions of dollars. That's been the case over a number of 
years from the programs that are set up to prevent the 
wildfires. These are programs like thinning and hazardous fuels 
reduction.
    Now the reality is that these quick cash schemes never 
solve the budget problem. They all but guarantee that future 
wildfires are going to be even more costly and more dangerous. 
In fact the Forest Service's borrowing results in higher costs, 
not only to taxpayers, but also to the private businesses and 
organizations that work with the Forest Service. It has 
adversely affected virtually everything the Forest Service does 
and poses a significant threat to the Agency's capacity to 
carry out its mission.
    It is very clear there needs to be a new approach to be 
able to get ahead of the problem of wildfire and keep the 
buildup of hazardous fuels in check. At past hearings before 
this committee the Forest Service Inspector General testified 
that hazardous fuels are estimated to be accumulating on forest 
lands three times as fast as they can be treated. With the 
current approach it is not a question of if, but when the next 
disaster will strike.
    Today the committee is going to consider several important 
pieces of legislation to deal with this. The committee intends 
to consider S. 561, H.R. 1404, the FLAME Act. They have been 
sponsored by our chair, by my friend the ranking member, 
Senator Murkowski. I'm very pleased to be joining Chairman 
Bingaman and Senator Murkowski in co-sponsoring this important 
legislation.
    In addition I am also working on legislation to greatly 
step up the pace of desperately needed work to reduce the 
buildup of hazardous fuels and the risk of catastrophic fire. I 
want the Forest Service to have new tools to get out in front 
of the problem and prevent our forest lands and the taxpayers 
from getting burned. It is my hope to have that legislation 
ready for introduction shortly.
    Finally from the outset of his administration, the 
President, President Obama has called for a full and honest 
accounting of the money we plan to spend. Referring to the past 
practices of failing to adequately budget for fires is one 
example. Accordingly his fiscal year 2010 proposes for the 
first time a separate account to be held in reserve to fund 
wildfire suppression costs that exceed the standard budget 
during the next fiscal year. The FLAME Act complements the 
President's proposal by providing the authorization and 
administrative direction along with future appropriations that 
are necessary for a long term solution.
    Today the committee will hear from several panels of 
witnesses.
    The first panel will be Jay Jensen, Deputy Undersecretary 
for Natural Resources in the Department of Agriculture.
    The Honorable Rhea Suh, Assistant Secretary for Policy 
Management and Budget for the Department of the Interior.
    Patricia Dalton, Managing Director for Natural Resources 
and Environment at the Government Accountability Office.
    We will be going to your testimony for the three of you 
momentarily. But first I'd like to turn to the committee's 
ranking member, Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to be with you this morning. As I mentioned 
Alaska is on fire, we're having actually a really nice summer 
up North. But with the good, dry weather brings the fires that 
we so often see.
    I understand Alaska is about 1.1 million acres that have 
been burned. This is out of the 2.8 million acres that have 
swept across the country. So once again, Alaska is in the news 
when it comes to our wildfires.
    Mr. Chairman, you've indicated some of the issues that 
arise when we look at the budget within the Forest Service. The 
fire programs now cost the Forest Service more than 50 percent 
of its overall budget. The combination of drought, suburban 
growth and the wild land interface and extremely poor forest 
health conditions all point to higher fire suppression costs.
    The result of these challenges, as you mentioned, is the 
FLAME Act that we have co-sponsored. The House of 
Representatives has made some changes to the FLAME Act that I 
think are unacceptable. The questions that I will pose this 
morning will help provide some clarity to that. I'm also 
concerned with the manner in which the administration proposed 
funding fire suppression in the FY2010 budget. When the FLAME 
Act is signed into law it will not bear fruit unless the 
administration and the Appropriations Committees harmonize 
their fire budget request to the FLAME Act.
    I have looked at the 2009 quadrennial fire review report. 
It was put together by the fire staffs at the respective land 
management agencies, State foresters and others. For the past 
100 years the Forest Service and BLM focused on land 
management. Fire fighting was only a small additional program 
that they carried out to help protect the investments that were 
made in land management.
    Today I think we have seen fire preparedness and 
suppression become the tail that literally wags the dog. Land 
management seems to be an afterthought. I sometimes fear that 
those within the Forest Service want to become the masters of 
disaster response. I'm not sure that this should be the task of 
our land management agencies.
    I see no reason that the Forest Service or BLM should be 
dealing with pandemics or other civil defense crisis as a core 
mission. But this appears to be becoming their role. I think 
that this can be taken too far.
    In some portions of California they've taken on the 
responsibility of being first responders for traffic accidents. 
In the report they envision being called on to deal with 
disease outbreaks and other disasters that have absolutely 
nothing to do with the lands that they have been entrusted to 
manage. This has implications to other non-fire resource 
management. This committee and this Congress needs to stop the 
mission creep or we'll need to double the size in the budgets 
for these two agencies.
    Finally there is another issue looming that we need to 
focus on. In 2004 the Forest Service grounded 33 large fire 
fighting aircraft due to their age and their metal fatigue 
issues. We went from 44 such aircraft to a fleet of less than 
15. The Forest Service shifted to using only former Navy 
antisubmarine war aircraft flown by contract companies. This 
past year the Navy was forced to ground 39 of its P-3 Orion 
aircraft due to metal fatigue issued in the wings.
    Since the majority of the Forest Service contract fire 
bombers are P-3s, we need to become better prepared to deal 
with this issue. It is approaching and I think we all recognize 
that it is going to be pretty expensive.
    All of the alternative fixes are costly. If we don't put 
time into thinking about the issue and preparing for the day 
that the wings literally start falling off. We will find 
ourselves at the mercy of the Department of Agriculture as they 
attempt to provide a solution. Hastily thought out emergency 
responses are always more costly, certainly more disruptive. I 
think we need to be proactive in anticipating.
    Mr. Chairman, I look forward to the comments from the 
witnesses and working with you on the FLAME Act and other good 
legislation.
    Senator Wyden. I thank my colleague. You're absolutely 
right in terms of your diagnosis and the opportunity to move 
ahead. So I look forward to working closely with you.
    Let's go next to Ms. Suh. Welcome, and I appreciate your 
participation. I know you've been cooperating with the staff. 
We'll make your prepared remarks a part of the record in their 
entirety.
    For all our witnesses I know that there is almost a 
physical compulsion to just put one's head down and start 
reading. But if there is any way we can persuade you to 
summarize your views, we'll make your prepared remarks a part 
of history for the ages. Ok?
    [Laughter.]
    Senator Wyden. Ms. Suh, welcome.

STATEMENT OF RHEA SUH, ASSISTANT SECRETARY, POLICY, MANAGEMENT 
             AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Suh. Thank you, Mr. Chairman and thank you, Senator 
Murkowski. I really appreciate the opportunity to testify today 
on Federal wildland fire management and options for funding 
this activity. The Department of Agriculture and the Department 
of the Interior continue to work closely in wildfire 
management.
    My colleague, Deputy Under Secretary Jensen and I have 
coordinated our statement to provide a comprehensive 
presentation of the management challenges we share as well as 
our ongoing efforts to meet these challenges more effectively. 
We have submitted our joint, full written statement for the 
record. In order to be mindful of your time, I've condensed my 
oral comments to basically provide a brief context for the 
challenges associated with wildfire management today and a 
brief update on the 2009 fire season and our State of 
readiness.
    Wildland fire and wildland firefighting are influenced by a 
complex set of environmental and social factors. As you are 
aware fires in recent years have become larger and fire seasons 
have grown longer due to climate change, persistent drought and 
hazardous fuels accumulations. In addition development within 
the wildland urban interface has increased the complexity of 
fighting wildfires. We believe these factors are the primary 
drivers behind rising costs and are the leading variables 
driving the rapid increase in fire suppression expenditures.
    Both the Department of the Interior and Agriculture 
recognize this serious responsibility we bear in protecting 
people, property and natural resources from wildfire. While our 
initial attack success continues to be very good, roughly 97 
percent in the last several years, our highest priority is the 
safety of our firefighters and our citizens. Reduced exposure 
to unnecessary risk during fire incidences will continue to 
guide fire management decisions and will anchor our actions.
    Additionally we will continue to actively work with 
communities to expand their capacity to mitigate risks from 
damaging fire. We will continue to make fuel treatment and 
wildland urban interface areas a priority, assist localities in 
building the response capability in wildfire prone areas, work 
collaboratively with local communities to understand the role 
of fire in these landscapes, and help foster individual 
responsibilities for private property protection.
    The 2009 wildfire season has been moderate to date. June 
was a relatively wet and cool month throughout most of the 
West. As the season progresses below normal significant fire 
potential is expected across portions of the Great Basin, the 
Southwest and the Southeast.
    However there are areas of the country that we need to pay 
careful attention to: portions of Washington, California and 
the Appalachian Mountains have been drier than normal and 
significant fire potential is forecast to increase or persist 
across these areas.
    So far, as of July 15, over 51,000 fires have burned to an 
excess of 2.5 million acres. Over 85 percent of these incidents 
to date have been on State or other non-Federal lands with more 
than two-thirds of the acres burned.
    To prepare for the conditions anticipated in the 2009 fire 
season, the Departments are working together to improve the 
efficiency and effectiveness of our firefighting resources.
    In terms of our firefighting forces in 2009, we have over 
18,000 firefighters available, including permanent and 
seasonal, Federal and State employees, crews from tribal and 
local governments, contract crews and emergency and temporary 
hires. This number is comparable to those from last year.
    In terms of our aviation, the wildland fire agencies 
continue to employ a mix of fixed and rotor wing aircraft. 
Interior, the lead contractor for Single Engine Air Tankers, 
will maintain a mix of aviation resources to include 21 Single 
Engine Air Tankers, 44 helicopters and 13 aerial supervision 
aircraft in 2009, which is again, similar to that of 2008. This 
resource readiness is comparable to the last several years and 
we believe an effective approach. We do acknowledge however, 
that we need to look at our long-term aviation needs and the 
Departments are doing that now.
    Before my colleague, Mr. Jensen completes our joint 
testimony. I want to express my appreciation to the members of 
this committee and to the full House for their efforts to 
address the current problems related to the way fire 
suppression costs are managed. The administration supports the 
FLAME Act if amended to provide for a contingency reserve as 
outlined by the President's budget. We believe that the 
administration's budget proposal can address the problem.
    The administration looks forward to working with Congress 
on safe, cost effective and accountable results in managing 
wildfire. This concludes my oral statement. I'm happy to answer 
any questions you may have later. Thank you.
    [The joint prepared statement of Ms. Suh and Mr. Jensen 
follows:]

 Joint Statement of Rhea Suh, Assistant Secretary, Policy, Management 
 and Budget, Department of the Interior, and Jay Jensen, Deputy Under 
    Secretary for Natural Resources and Environment, Department of 
                              Agriculture

                              INTRODUCTION

    Mr. Chairman, Ms. Murkowski, and members of the Committee, thank 
you for the opportunity to testify today on Federal wildland fire 
management and options for funding this activity. The Department of 
Agriculture and the Department of the Interior continue to work closely 
together in wildfire management We have coordinated our statement to 
provide a well-rounded presentation of the management challenges we 
share, as well as our recent efforts to meet these challenges more 
effectively.

                        WILDLAND FIRE MANAGEMENT

    The Departments take seriously the protection of people, property 
and valuable natural resources from wildfire. We are prepared for the 
2009 wildland fire season and are staffed to provide safe, effective 
fire management. We have available fire fighting forces--firefighters, 
equipment, and aircraft--comparable to 2008 with more than 18,000 
firefighters, and we will have equal or greater numbers of aviation, 
engines and other equipment assets on the ground. Further, the 
Departments have expanded strategic centralized management and pre-
positioned aviation assets in order to constantly improve management 
effectiveness and increase cost efficiency which will lead to even 
greater safety and community and resource protection.
    We will continue our commitment to successful initial attack of 
wildland fire. For the last several years, the wildland fire agencies 
faced 18,000 or more wildfires a year with an average of 97% success on 
initial attack. This will be carried out, however, with full attention 
to firefighter safety as the foremost principle. Reduced exposure to 
unnecessary risk during fire incidents continues to guide fire 
management decisions and anchors our actions. Additionally, we continue 
to actively work with communities to expand their capacity to be safe 
from damaging fire. We continue to make fuels treatment in wildland 
urban interface areas a priority, assist localities to build their 
response capability, work collaboratively with local communities in 
wildfire prone areas to understand the role of fire in these landscapes 
and help find ways to take actions to mitigate risk, and help spread 
the knowledge of tools to foster individual responsibility to property 
protection.
    Wildland fire and wildland fire fighting are influenced by a 
complex set of environmental and social factors. Though there have been 
a decreasing number of wildfires on National Forest System lands over 
the past ten years, fires across jurisdictions in recent years have 
become larger, consuming more acres, and fire seasons have grown longer 
due to climate change\1\, persistent drought and hazardous fuels 
accumulations\2\ that reflect in part the results of previous fire 
management. In addition, the expansion of development has increased the 
complexity of fighting wildland fire. These trends are not expected to 
change. In fact, it is expected that climate change will continue to 
result in environmental responses that bring greater probability of 
longer fire seasons and bigger fire events in most regions of the 
country. Weather shifts and cumulative drought effects will further 
stress fuels accumulations and are predicted to result in more total 
fire on the landscape and potentially more large fires. Additionally, 
although current economic conditions have slowed, growth in wildland 
areas, regional shifts in population and demographic trends point to 
more seasonal recreational homes and full time residency in areas 
adjacent to forested public lands. We believe these factors, as well as 
the management framework and decisions during some fire incidents, are 
the primary drivers behind rising costs and are the leading variables 
driving annual fire suppression expenditures to have frequently 
exceeded the ten-year average.
---------------------------------------------------------------------------
    \1\ Joyce, L.A. et al (2008) Chapter 3 National Forests in US 
Climate Change Science Program: Preliminary review of adaptive options 
for climate-sensitive ecosystems and resources. A Report by the U.s. 
Climate Change Science Program and Subcommittee on Global Change 
Research. [Julius, S.H., J.M. West (eds.), J.S. Baron, L.A. Joyce, P. 
Kareiva, b.D. Keller, M.A. Palmer C.H. Peterson, and J.M. Scott 
(Authors)]. U.S. Environmental Protection Agency, Washington, DC USA, 
873 pp.
    \2\ Westerling. A.L., H.G. Hidalgo, D.R. Cayan, T.W. Swetnam. 2006. 
Warming and Earlier Spring Increase Western U.S. Forest Wildfire 
Activity. Science. 313 (5789): 940-943.
---------------------------------------------------------------------------
                   2009 WILDLAND FIRE SEASON OUTLOOK

    The 2009 wildland fire season has been light to date in which we 
have seen the longest period at Preparedness Level 1 since 1990. June 
was a very wet and relatively cool month over much of the West. 
However, portions of Washington, northern Idaho and Montana were drier 
than normal and the Northwest and Southeast were persistently hot and 
dry. Although welcome short-term relief was provided in many locations, 
drought conditions in areas of the Northwest, California, Nevada, and 
Texas are expected to persist or worsen.
    As the season progresses, below normal significant fire potential 
is expected across portions of the Great Basin, the Southwest, and 
Southeast. Conversely, significant fire potential is forecast to 
increase or persist across portions of Washington, California and the 
Appalachian Mountains during the leaf drop period in October.
    As of July 15, 2009 over 51,000 fires have burned an excess of 2.5 
million acres. Over 85 percent of the incidents to date have occurred 
on state and other non-federal lands and more than two thirds of the 
acres burned were non-federal lands.

                       WILDLAND FIRE PREPAREDNESS

    To prepare for conditions anticipated in the 2009 fire season, the 
Departments are working to improve the efficiency and effectiveness of 
our fire fighting resources. Fire managers assign local, regional, and 
national fire fighting personnel and equipment based on anticipated 
fire starts, actual fire occurrence, fire spread, and severity with the 
help of information from the National Interagency Fire Center 
Predictive Services group.
Firefighting Forces
    For the 2009 fire season, we have available firefighting forces--
firefighters, equipment, and aircraft--comparable to those available in 
2008. More than 18,000 firefighters are available, including permanent 
and seasonal Federal and State employees, crews from Tribal and local 
governments, contract crews, and emergency/temporary hires. This figure 
includes levels consistent with 2008 of highly-trained firefighting 
crews, smokejumpers, Type 1 national interagency incident management 
teams (the most experienced and skilled teams) available for complex 
fires or incidents, and Type 2 incident management teams available for 
geographical or national incidents. The Departments frequently work in 
unified command with State and local departments. They serve a critical 
role in our initial attack success and we could not be as effective as 
we have been without them.
    The Forest Service hosts four interagency National Incident 
Management Organization (NIMO) teams staffed for 2009. These are four 
seven-member full-time Type I Incident Management Teams ready to 
respond to wildland fire incidents. In addition, the NIMO teams have 
worked with selected National Forests that are historically at higher 
risk of large fire prior to the season to work collaboratively to build 
capacity through strategic pre-season planning and training in risk 
management protocol for decision making and critical incident 
operations.
    The National Interagency Coordination Center, located at the 
National Interagency Fire Center in Boise, coordinates fire fighting 
needs throughout the nation. In the event of multiple, simultaneous 
fires, resources are prioritized, allocated, and, if necessary, re-
allocated by the National Multi-Agency Coordinating group, composed of 
representatives of major fire organizations headquartered at NIFC. 
Prioritization ensures firefighting forces are positioned where they 
are needed most. Fire managers dispatch and track personnel, equipment, 
aircraft, vehicles, and supplies and are all managed through an 
integrated national system. If conditions become extreme, assistance 
from the Department of Defense is available under standing agreements, 
as well as fire fighting forces from Canada, Mexico, Australia, and New 
Zealand, using established agreements and protocols.
Aviation
    The wildland firefighting agencies continue to employ a mix of 
fixed and rotor wing aircraft. Key components of the Forest Service 
2009 aviation assets include up to 20 civilian large air tankers on 
Federal contracts, along with up to 33 Type 1 heavy helicopters and 36 
Type 2 medium helicopters on national exclusive-use contracts; 53 Type 
3 helicopters on local or regional exclusive-use contracts, and 8 
Modular Airborne Fire Fighting System units that will be available for 
deployment. Additionally, there are nearly 300 call-when-needed Type 1, 
2 and 3 helicopters available for fire management support as conditions 
and activity dictate. Likewise, Interior, the lead contractor for 
Single Engine Air Tankers, will maintain a mix of aviation resources to 
include 21 SEATS, 44 Helicopters, and 13 Aerial Supervision Aircraft in 
2009 similar to that used in 2008. This resource readiness is 
comparable to the past several years and we believe an effective 
approach. We do acknowledge, however, that we need to look at our long-
term aviation needs, and the Departments are doing that now.

          IMPACTS OF A CHANGING AND EXPANDING FIRE ENVIRONMENT

    Currently, ecosystems across the country are out-of-balance with 
fire. The trends are for fire to expand across the landscape. A 
combination of mechanical treatment and managed fire can help return 
some fire adapted ecosystems to health and prevent heavy accumulations 
of highly flammable fuels. But, current conditions can mean more 
extreme fire that puts people and natural resources at risk. We must be 
prepared to cope with the potential for increasing acres burned over 
the next five years, more extreme fire behavior, and irregular fire 
patterns on the landscape. These factors could affect cost. For 
example, last year, although the wildland fire agencies successfully 
suppressed 97% of all wildfires on initial attack, forty wildfires grew 
to become ``megafires'' (.25 of 1%) representing more than half of the 
Forest Service expenditures on wildland fire. The agencies are working 
together and providing resources to address these problem areas.
    This Administration makes the protection of communities, the 
environment, and firefighter safety a priority. The factors described 
above increase fire fighting complexity and have contributed to 
increased expenditures by the agency. The inflation-adjusted ten-year 
average for wildland fire suppression for two Departments, $1.5 
billion, is more than twice the FY 2001 level. These increases in turn 
elevate the 10-year average for wildland fire suppression used in the 
Budget formulation. Therefore, the Wildland Fire Management budget has 
grown significantly and now makes up over 48% of the Forest Service 
discretionary budget and Interior's suppression budget is now 41 
percent of the fire program. Because the budget reflects the 
Administration's priorities within a constrained budget environment, 
escalating suppression and fuels treatment obligations-like all other 
resource management program obligations-have been absorbed within the 
wildland fire agencies' discretionary totals. In recent years lower 
amounts have been available for other mission critical programs across 
the agencies. The President's Fiscal year 2010 budget addresses this as 
discussed below.
    We have spent over $1.5 billion annually fighting wildfires in 5 
out of the past 7 years. In addition to the increasing size of the 
Wildland Fire portion of the overall Forest Service budget, 
approximately $1.9 billion has been transferred from non-fire agency 
programs to help cover fire suppression operations costs since FY 2002. 
Fire transfers have also impacted Interior as well, but to a relatively 
lesser degree. It should be noted that most, but not all, of these 
funds have been restored to the agencies through emergency supplemental 
appropriations. Interior has executed over $800 million in transfers. 
Responding to these emergencies with transfers that typically occur in 
the final months of the fiscal year, coupled with the shifting of 
personnel resources from program work to work associated with wildfire 
suppression response have resulted in considerable work disruption, 
delay, postponement, and even cancellation of projects. This transfer 
authority is an important tool to ensure that there will not be a lapse 
in emergency fire fighting activities due to a lack of funding. 
Responding to these emergencies have affected the wildland fire 
agencies' ability to deliver their programs of work, and has reduced 
accomplishments and impaired partnerships, even when the transferred 
funds were repaid through supplemental appropriations.
    The Departments have adopted substantive management reforms to 
mitigate this cost trend. Along with us, our State and local partners 
have spent significant effort and resources over the past several years 
to coordinate capability, improve inter-governmental communication, and 
employ management controls to ensure effective response,. raise 
efficiency, and to manage operations within the amounts appropriated to 
manage wildland fire. We are expanding these efforts for the current 
fire season and beyond. For example, a number of Wildland Fire Decision 
Support Systems (such as FSPro, which models fire behavior, and RAVAR, 
which models values at risk from fire) provide real-time support to 
fire managers implementing Risk-Informed Management. These efforts are 
coupled with other program efforts such as strategic and operational 
protocols, improved oversight, and use of a risk management framework 
that ensure fire management resources are appropriately focused.
    However, we recognize that despite our best efforts, circumstances 
may occur that lead obligations to exceed these appropriated amounts. 
We are pleased that the Administration has included a proposal in the 
Fiscal Year 2010 Budget that provides for a $357 million Wildland Fire 
Management Contingency Reserve with the Departments' budgets. This 
proposal reflects the President's commitment to wildfire management and 
community protection by establishing a new contingent reserve funds 
dedicated to addressing catastrophic wildfires in addition to fully 
funding the ten year average of suppression costs adjusted for 
inflation at $1.5 billion. This nearly $1.9 billion in funding is 
coupled with program reforms that ensure fire management resources are 
focused where they will do the most good. Funds from the contingent 
reserve will be used only if needed and available upon issuance of a 
Presidential finding. By establishing a dedicated fund for catastrophic 
wildfires, fully funding the inflation-adjusted ten year average of 
suppression costs, and providing program reforms, the Budget reduces 
the need for agencies to transfer funds from non-fire programs to pay 
for fire fighting when agency appropriated suppression funds are 
exhausted.
    We must recognize that funding is only one part of the wildland 
fire management solution and we must re-double our efforts to manage 
the span of the wildfire problem by investing in not just suppression, 
but hazardous fuels reduction, restoration action, and community 
assistance. The President's Budget also reflects the commitment of this 
Administration to implement program reforms to allow wildfire to 
reassume its ecological function on the landscape and ensure fire 
management resources are focused where they will do the most good.
    The President's Budget for FY 2010 provides funding at levels that 
equips the agencies to help restore and manage the Nation's forests and 
rangelands. It also recognizes problems with how fire suppression has 
been funded and addresses the fire transfer problem by adding a 
contingent reserve of $282 million for the Forest Service and $75 
million for Interior, and provides funding increases commensurate with 
the increase in the ten-year average suppression costs. The 
Administration appreciates the strong support of the House in providing 
requested funding amounts for wildfire suppression operations and the 
new Wildland Fire Suppression Contingency Reserve of the Forest Service 
and Department of the Interior, and encourages the Senate to do the 
same. We are also aware of S.561, the FLAME Act, introduced by this 
Committee, and H.R. 1404, introduced in the House, that aims to 
accomplish the separation between routine wildland fire management and 
large, catastrophic fire events. We appreciate the efforts of the 
sponsors of the FLAME Act to address the current problems related to 
the way firefighting costs are funded. The Administration supports the 
FLAME Act if amended to provide for a contingency reserve, as outlined 
in the President's budget. We believe that the Administration's budget 
proposal can address the problem. The Administration looks forward to 
working with the Congress on safe, cost-effective, and accountable 
results in managing wildfire. We imagine a day when we have the 
opportunity to effectively address catastrophic wildfires, restore fire 
adapted landscapes, and have adequate resources for hazardous fuels, 
fire science, assistance to others, and preparedness. This will assist 
in the creation of new wood-based industries to create jobs, such as 
through the expansion of wood-to-energy and alternative fuels goals 
through wood, ethanol, and other bio-fuels to support our nation's 
independence from foreign oil.

                FIRE MANAGEMENT IS EVOLVING TO A NEW ERA

    The wildland fire program in the two Departments is strong and 
moving in a positive direction. We are committed to continued 
improvement to increase our effectiveness and maximize our efficiency. 
The Departments continue to face challenges that make management of 
wildland fire complex, demanding and expensive. However, we have taken 
steps to manage costs and are adopting techniques to apply before and 
during fire incidents that work assertively to advance risk-informed 
fire management, operational efficiencies, utilization of research and 
technology, and targeted program implementation to reduce fire-related 
impacts. Specifically, these actions include:

  <bullet> We will continue to reduce hazardous fuels on priority 
        lands. From 2001 through 2008, together we have treated about 
        23 million acres on federal lands through hazardous fuels 
        reduction and over 7 million acres through other land 
        restoration activities;
  <bullet> We will continue our focus on hazardous fuels treatments in 
        wildland-urban interface areas and in fire-adapted ecosystems 
        that present the greatest opportunity for forest and rangeland 
        restoration and to reduce the risk of severe fires in the 
        future;
  <bullet> Continued implementation of the American Recovery and 
        Reinvestment Act which provides $500 million for the Forest 
        Service and $15 million for the Interior Department to reduce 
        hazardous fuels and restore forest health on federal and other 
        lands, through partnership, including up to $50 million to 
        promote woody biomass as renewable energy. These funds will 
        greatly expand the effort to reduce dangerous accumulations of 
        fuels, create private sector jobs in hazardous fuels reduction 
        and alternative energy, and help support local economies. Many 
        projects have begun and most will be completed within 1-3 
        years;
  <bullet> We will continue to constantly improve decision-making on 
        wildland fires starting this year. The wildland fire agencies 
        have employed new decision support tools, through the Wildland 
        Fire Decision Support System, to give managers better 
        information to estimate risk and better ways to predict what 
        may happen during a fire. The decision support process is 
        intended to guide and document wildfire management decisions. 
        The process provides situational assessment, analysis of 
        hazards and risk, defining implementation actions, and 
        documentation of decisions and rationale for those decisions. 
        For fires that escape initial attack, we will incorporate these 
        science-based computer models and couple them with improved 
        risk management approaches as part of the agency continuing 
        effort to safeguard lives, protect communities and important 
        natural resource values and restore ecosystem health. These 
        fire management reforms are aimed at improving fire management 
        decisions, increasing firefighter and public safety, and are 
        anticipated to provide cost-effective and accountable outcomes 
        from investments made in managing fire on the landscape.
  <bullet> We will continue to work on enhanced response and efficiency 
        that comes from national shared resources, aviation resources 
        management, pre-positioning of firefighting resources, and 
        improvements in aviation risk management for safe engagement;
  <bullet> We are developing an Interagency Aviation Strategy that 
        looks to address a current aviation fleet that is aging and 
        costs of maintenance increasing;
  <bullet> We will continue after action review of fire incidents to 
        apply lessons learned and best practices to policy and 
        operations; and
  <bullet> Since the advent of the National Fire Plan in 2000, federal, 
        state and non-governmental entities have collaborated 
        operationally and strategically in an attempt to improve fire 
        prevention and suppression, reduce hazardous fuels, restore 
        fire-adapted ecosystems, and promote community assistance. 
        Ongoing planning with performance measures and implementation 
        tasks will guide the agencies to build on previous successes 
        with our partners.

    The Forest Service and Department of the Interior partner agencies 
have the best wildland firefighting organization in the world and 
together with our state, local, and tribal government partners work to 
maintain our operational excellence and continually improve the safety 
and effectiveness of the fire management program.

                               CONCLUSION

    This concludes our statement. We would be happy to answer any 
questions that you may have.

    Senator Wyden. I'm going to go right to Mr. Jensen. But how 
much land do you think we're talking about being susceptible to 
fire? You mentioned California. I think Appalachias, 
Washington? Any sense just of a ballpark how much land is 
susceptible to fire?
    Ms. Suh. The acres----
    Senator Wyden. Yes.
    Ms. Suh [continuing]. Within those 3 particular regions?
    Senator Wyden. Yes.
    Ms. Suh. I'm not sure.
    Senator Wyden. Can you get back to us?
    Ms. Suh. I will.
    Senator Wyden. Because we're clearly talking about millions 
of acres.
    Ms. Suh. Indeed.
    Senator Wyden. Ok. Mr. Jensen.

   STATEMENT OF JAY JENSEN, DEPUTY UNDER SECRETARY, NATURAL 
    RESOURCES AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Jensen. Thank you, Chairman Wyden, Ranking Member 
Murkowski. Let me express my gratitude for holding this hearing 
today. This issue has been needing some daylight for quite some 
time and really welcome this chance to provide some honest 
dialog on where we're going to be headed.
    I've been fortunate enough to experience wildfire from a 
number of different perspectives. I hope that it will enable me 
to shed some new light on this issue. Having once been a wild 
land firefighter and having worked for years on fire management 
issues in the Western states, I've had a chance to see the 
issues from the State, private landowner and now the Federal 
perspective. I've heard from partners and from the field about 
the effects of increasing fire seasons and the budgeting 
challenges they create. It is clear we need to fix our wildfire 
problems.
    As Assistant Secretary Suh has shared, this fire season has 
been light to date. We have been fortunate. Yet we are now 
entering a critical period of the fire season. Currently we 
have 18 uncontained large fires across the country and we 
expect that to grow.
    This administration makes a protection of communities, the 
environment and firefighter safety a priority. The factors of 
climate change, increased fuel loadings on our forests and the 
expansion and development in the wild land urban interface 
increase fire fighting complexity and contribute to the 
increased expenditures by the agency. The trends are for more 
and larger fires to expand on landscape.
    These factors will drive cost and initial attack will be a 
key strategy to keep fires small and costs down. Last year it 
was just 40 wildfires that escaped initial attack and grew to 
become the mega fires we know. That's just 0.25 of 1 percent of 
the fires. Important to know this 0.25 represented 
approximately 60 percent of Forest Service expenditures on wild 
land fire.
    Further the inflation adjusted 10 year average for wild 
land fire suppression for our two departments has reached 1.5 
billion, more than twice the fiscal year 2001 level. We have a 
few charts that I'll ask my colleagues to put up that show some 
of these numbers here. But as I continue these increases in 
turn are felt dramatically in the formulation of the budget. 
The result is the wild land fire management budget under a 
constrained or capped budget now makes up over 48 percent of 
the Forest Service discretionary budget and it has cost over 
1.5 billion annually fighting wildfires in five out of the last 
7 years which is more than the appropriated amount.
    This has forced the agency to transfer dollars as you have 
both noted from other important programs and from the field to 
stay within our budget limits. It should be noted that most, 
but not all of these funds have been restored to the agency 
through emergency supplemental appropriations. Yet these fire 
transfers have resulted in considerable work disruption, delay, 
postponement and even cancelation of critical projects. We need 
to fix this situation.
    This fix must be paired with strong cost containment 
directives. Each year for the past 3 years the Forest Service 
has contracted for a study in evaluation of cost controls on 
wildfires costing over $10 million. The latest, soon to be 
released, an independent report found no fiscal malfeasance 
within the agencies actions.
    We must conduct our operations within the dollar amounts 
appropriated. These cost management efforts are working. Yet we 
still have a budgeting dilemma. To address this challenge the 
fiscal year 2010 budget establishes a $357 million contingent 
reserve fund dedicated to addressing wildfire suppression 
funding shortfalls. In addition to fully funding the 10 year 
wildfire suppression average, this reserve mechanism helps us 
to move away from the need to transfer dollars from other 
agency accounts.
    This committee has responded with the introduction of the 
FLAME Act. The FLAME Act accomplishes an important budgetary 
separation of routine wildfire suppression from large 
catastrophic fire events. We need to treat budget and our large 
catastrophic fires separately from normal fires.
    The administration supports the FLAME Act if amended to 
provide for a contingency reserve as outlined in the 
President's budget. We believe that the administration's 
approach through a contingent reserve is the best budget 
mechanism to provide the needed funds. The administration is 
grateful for the introduction of the FLAME and looks forward to 
working with you all to iron out the differences.
    It is important to note here that often we only focus on 
one part of the wild land fire management solution, 
suppression. Rather we believe we must focus our efforts to 
manage the span of the wildfire problem by investing in not 
just suppression, but strategic hazardous fuels reduction, pre-
fire restoration, post-fire rehabilitation and community 
assistance to build capacity. Our fire problem will only be 
solved when we enable communities and individual citizens to 
take responsibility for their own protection.
    In closing the wild land fire program in the two 
departments is strong and moving in a positive direction. We 
are committed to continued improvement to increase our 
effectiveness and maximize our efficiency. Reducing fuels will 
continue to be a priority in the wild land urban interface. 
Perhaps, we can get to a place 1 day where we could actually be 
doing what I like to call hazardous fuels recovery where we can 
actually use those fuels to create green jobs in the forestry 
and energy sectors.
    We'll also continue our commitment to implement their 
Recovery Act which provided 500 million for the Forest Service 
to reduce fuels. We're redoubling our efforts around fire 
fighter safety and public safety on our most fire prone 
forests. This year we'll be prepositioning strike teams on 
those 0.25 mentioned earlier.
    We're developing an interagency aviation strategy. Last, as 
Federal agencies we recognize we cannot fight fire alone. 
Without the states and our local fire departments, we cannot 
safely and effectively manage wildfire. We will foster 
cooperation and collaboration between Federal, State and local 
governments.
    Senator Wyden. Let's do this, Mr. Jensen. If you have any 
final points, we'll take them and we'll put the rest of your 
statement in the record.
    Mr. Jensen. Already did. Thank you.
    Senator Wyden. Very good.
    Ms. Dalton.

   STATEMENT OF PATRICIA DALTON, MANAGING DIRECTOR, NATURAL 
  RESOURCES AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Dalton. Thank you, Mr. Chairman, Senator Murkowski. I'm 
pleased to be here today to discuss wild land fire management 
by Federal agencies. The Nation's wild land fire problems have 
worsened dramatically over the past decade threatening 
communities as well as important natural and cultural 
resources. In recent years both average acres burned and 
Federal appropriations for wild land fire management activities 
have more than doubled with appropriations reaching over $3 
billion.
    My testimony today will focus on first, the progress the 
Forest Service and Interior agencies have made in managing wild 
land fire.
    Second, key actions we've previously recommended and 
believe are still necessary to improve the agencies' management 
of wild land fire.
    The agencies' efforts have better positioned themselves to 
respond to fire effectively. Federal agencies have improved 
their understanding of wild land fires role on the landscape 
and have taken important steps toward improving their ability 
to cost effectively protect communities and resources.
    Under current policy the agencies have abandoned their 
attempt to put out every wildfire, seeking instead to make 
communities and resources less susceptible to being damaged by 
wild land fire respond to fire so as to protect communities and 
important resources at risk while considering both cost and the 
long term effects of response. By emphasizing fire fighting 
strategies that focus on land management objectives rather than 
seeking to suppress all fires, the agencies are increasingly 
using less aggressive firefighting strategies, strategies that 
cannot only reduce costs, but also be safer for firefighters by 
reducing their exposure to unnecessary risk.
    In recent years the agencies have taken a number of steps 
and developed tools to better address the wild land fire 
threat. In allocating fuel reduction funds they are developing 
a process that considers risk, effectiveness of treatments and 
other factors. They are nearing completion of landfire, a 
geospatial data and modeling system that provides critical 
information to assess fire threats. A new analytical tool known 
as the wildland fire decision support system helps the line 
officers and fire managers analyze various factors such as the 
fire's current location, adjacent fuel conditions, weather 
forecasts and nearby structures and other valued resources in 
determining the best strategy and tactics to adopt in fighting 
a fire.
    Despite the important steps that the agencies have taken 
much work remains. We have previously recommended four key 
actions that if completed would improve the agencies' 
management of wild land fire.
    Specifically the agencies need to first, develop a 
comprehensive strategy. Essentially this is an investment 
strategy that lays out various approaches for reducing fuels 
and responding to wild land fires, the estimated costs 
associated with each approach and the tradeoffs involved. Such 
a cohesive strategy is essential for Congress and the agencies 
to make informed decisions about effective and affordable long 
term approaches for addressing the wild land fire problems. 
Agency officials have told us that they have begun planning on 
how to develop such a strategy. The FLAME Act would require the 
agencies to produce within 1 year of enactment, a cohesive 
strategy consistent with our recommendations.
    Second, the agencies need to establish a comprehensive cost 
containment strategy. The agencies have taken several steps 
intended to help contain wild land fire costs including 
establishing over arching goals and objectives. However the 
strategy needs further development and lacks clarity and 
specificity needed by land management and fire fighting 
officials in the field to better manage and contain wildfire 
land costs.
    Third, clearly defined financial responsibilities for fires 
across jurisdictions. Protecting the Nation's communities is 
both one of the key goals of wild land fire management and one 
of the leading factors contributing to rising fire costs. 
Without clarifying responsibilities the concerns that the 
existing framework insulates non-Federal entities from the cost 
of protecting the wild land urban interface and that the 
Federal Government therefore would continue to bear more of its 
share of that cost are unlikely to be addressed.
    Then finally mitigating effects of rising fire costs on 
other agency programs. The sharply rising costs of managing 
wild land fires have led agencies to transfer funds from other 
programs to pay for fire suppression. These transfers disrupt 
or delay activities in these other programs.
    Better methods of estimating the suppression funds the 
agencies request would reduce the likelihood that the agencies 
will need to transfer funds. Also Congress could consider, as 
we noted in our 2004 report, establishing a reserve account to 
fund emergency wild land firefighting. The FLAME Act would 
provide for such a fund.
    Mr. Chairman, this concludes my prepared statement. I'd be 
pleased to answer any questions.
    [The prepared statement of Ms. Dalton follows:]

   Prepared Statement of Patricia Dalton, Managing Director, Natural 
      Resources and Environment, Government Accountability Office

                        WILDLAND FIRE MANAGEMENT
  FEDERAL AGENCIES HAVE TAKEN IMPORTANT STEPS FORWARD, BUT ADDITIONAL 
            ACTION IS NEEDED TO ADDRESS REMAINING CHALLENGES

Why GAO Did This Study
    The nation's wildland fire problems have worsened dramatically over 
the past decade, with more than a doubling of both the average annual 
acreage burned and federal appropriations for wildland fire management. 
The deteriorating fire situation has led the agencies responsible for 
managing wildland fires on federal lands-the Forest Service in the 
Department of Agriculture and the Bureau of Indian Affairs, Bureau of 
Land Management, Fish and Wildlife Service, and National Park Service 
in the Department of the Interior-to reassess how they respond to 
wildland fire and to take steps to improve their fire management 
programs. This testimony discusses (1) progress the agencies have made 
in managing wildland fire and (2) key actions GAO believes are still 
necessary to improve their wildland fire management. This testimony is 
based on issued GAO reports and reviews of agency documents and 
interviews with agency officials on actions the agencies have taken in 
response to previous GAO findings and recommendations.
What GAO Recommends
    GAO is making no new recommendations at this time. The agencies 
have generally agreed with GAO's previous recommendations, but have yet 
to implement several key recommendations GAO believes could 
substantially assist them in capitalizing on the important progress 
they have made to date.
What GAO Found
    The Forest Service and Interior agencies have improved their 
understanding of wildland fire's ecological role on the landscape and 
have taken important steps toward enhancing their ability to cost-
effectively protect communities and resources by seeking to (1) make 
communities and resources less susceptible to being damaged by wildland 
fire and (2) respond to fire so as to protect communities and important 
resources at risk while also considering both the cost and long-term 
effects of that response. To help them do so, the agencies have reduced 
potentially flammable vegetation in an effort to keep wildland fires 
from spreading into the wildland-urban interface and to help protect 
important resources by lessening a fire's intensity; sponsored efforts 
to educate homeowners about steps they can take to protect their homes 
from wildland fire; and provided grants to help homeowners carry out 
these steps. The agencies have also made improvements that lay 
important groundwork for enhancing their response to wildland fire, 
including adopting new guidance on how managers in the field are to 
select firefighting strategies, improving the analytical tools that 
assist managers in selecting a strategy, and improving how the agencies 
acquire and use expensive firefighting assets.
    Despite the agencies' efforts, much work remains. GAO has 
previously recommended several key actions that, if completed, would 
substantially improve the agencies' management of wildland fire. 
Specifically, the agencies should:

  <bullet> Develop a cohesive strategy laying out various potential 
        approaches for addressing the growing wildland fire threat, 
        including estimating costs associated with each approach and 
        the trade-offs involved. Such information would help the 
        agencies and Congress make fundamental decisions about an 
        effective and affordable approach to responding to fires.
  <bullet> Establish a cost-containment strategy that clarifies the 
        importance of containing costs relative to other, often-
        competing objectives. Without such clarification, GAO believes 
        managers in the field lack a clear understanding of the 
        relative importance that the agencies' leadership places on 
        containing costs and are therefore likely to continue to select 
        fire fighting strategies without duly considering the costs of 
        suppression.
  <bullet> Clarify financial responsibilities for fires that cross 
        federal, state, and local jurisdictions. Unless the financial 
        responsibilities for multijurisdictional fires are clarified, 
        concerns that the existing framework insulates nonfederal 
        entities from the cost of protecting the wildland-urban 
        interface from fire-and that the federal government would thus 
        continue to bear more than its share of the cost-are unlikely 
        to be addressed.
  <bullet> Take action to mitigate the effects of rising fire costs on 
        other agency programs. The sharply rising costs of managing 
        wildland fires have led the agencies to transfer funds from 
        other programs to help pay for fire suppression, disrupting or 
        delaying activities in these other programs. Better methods of 
        predicting needed suppression funding could reduce the need to 
        transfer funds from other programs.

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss wildland fire management by the federal wildland fire 
agencies-the Forest Service within the Department of Agriculture and 
four agencies within the Department of the Interior-including key 
actions that we believe the agencies should take to improve their 
management of wildland fires and help contain the rising costs of 
preparing for and responding to fires. The nation's wildland fire 
problems have worsened dramatically over the past decade, threatening 
communities as well as important natural and cultural resources. Both 
the average acreage burned annually and federal appropriations for 
wildland fire management activities have more than doubled, with 
appropriations reaching more than $2.9 billion annually, on average, 
during fiscal years 2001 through 2007. A number of factors have 
contributed to these increases. Uncharacteristic accumulations of 
vegetation that can fuel wildland fires, due in part to past fire 
suppression policies and land management practices, and severe regional 
weather and drought have led to higher-intensity fires and longer fire 
seasons. At the same time, continued development in and near wildlands, 
an area often called the wildland-urban interface, has placed more 
homes at risk. A series of damaging wildland fires in the 1990s led the 
Forest Service and the Interior agencies to reassess their approach to 
managing fire. It also prompted a sustained effort, known as the 
National Fire Plan,\1\ on the part of federal agencies and Congress to 
improve fire suppression capabilities, reduce fuels, restore fire-
adapted ecosystems, and help communities better withstand wildland 
fire. Growing recognition of the long-term fiscal challenges facing the 
nation has also led Congress, the agencies, and others to focus on 
ensuring that federal wildland fire activities are appropriate and 
carried out in a cost-effective manner.
---------------------------------------------------------------------------
    \1\ The National Fire Plan is a joint interagency effort to respond 
to wildland fires. Its core comprises several strategic documents, 
including (1) a September 2000 report from the Secretaries of 
Agriculture and the Interior to the President in response to the 
wildland fires of 2000; (2) congressional direction accompanying 
substantial new appropriations for fire management for fiscal year 
2001; and (3) several strategies and plans to implement all or parts of 
the plan.
---------------------------------------------------------------------------
    My testimony today summarizes our previous findings and 
recommendations related to wildland fire, and also includes preliminary 
information from our ongoing work examining the extent to which the 
agencies have improved their wildland fire programs in response to our 
previous work.\2\ Specifically, I will focus on (1) the progress the 
Forest Service and the Interior agencies have made in managing wildland 
fire and (2) key actions we previously recommended and believe are 
still necessary to improve the agencies' management of wildland fire. 
To address these objectives, we reviewed previous GAO reports and 
agency documents and interviewed agency officials in Washington, D.C.; 
at the National Interagency Fire Center in Boise, Idaho; and elsewhere. 
We expect to issue a report later this year that will address these 
objectives in more detail.
---------------------------------------------------------------------------
    \2\ Our previous reports and ongoing work are performance audits 
being conducted in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
Background
    Wildland fires triggered by lightning are both natural and 
inevitable and play an important ecological role on the nation's 
landscapes. These fires shape the composition of forests and 
grasslands, periodically reduce vegetation densities, and stimulate 
seedling regeneration and growth in some species. Over the past 
century, however, various land use and management practices-including 
fire suppression, grazing, and timber harvesting-have reduced the 
normal frequency of fires in many forest and rangeland ecosystems and 
contributed to abnormally dense, continuous accumulations of 
vegetation. Such accumulations not only can fuel uncharacteristically 
large or severe wildland fires, but also-with more homes and 
communities built in or near areas at risk from wildland fires-threaten 
human lives, health, property, and infrastructure.
    The Forest Service and four Interior agencies-the Bureau of Indian 
Affairs, Bureau of Land Management, Fish and Wildlife Service, and 
National Park Service-are responsible for wildland fire management. 
These five agencies manage about 700 million acres of land in the 
United States, including national forests, national grasslands, Indian 
reservations, national parks, and national wildlife refuges.
    The federal wildland fire management program has three major 
components: preparedness, suppression, and fuel reduction.\3\ To 
prepare for a wildland fire season, the agencies acquire firefighting 
assets-including firefighters, engines, aircraft, and other equipment-
and station them either at individual federal land management units 
(such as national forests or national parks) or at centralized dispatch 
locations. The primary purpose of these assets is to respond to fires 
before they become large-a response referred to as initial attack-thus 
forestalling threats to communities and natural and cultural resources. 
The agencies fund the assets used for initial attack primarily from 
their wildland fire preparedness accounts.
---------------------------------------------------------------------------
    \3\ Other fire program components include prevention; science, 
research, and development; and assistance to nonfederal entities.
---------------------------------------------------------------------------
    When a fire starts, current federal policy directs the agencies to 
consider land management objectives-identified by land and fire 
management plans developed by each local unit, such as a national 
forest or a Bureau of Land Management district-and the structures and 
resources at risk when determining whether or how to suppress it. A 
wide spectrum of fire response strategies is available to choose from, 
and the manager at the affected local unit-known as a line officer-is 
responsible for determining which strategy to use. In the relatively 
rare instances when fires escape initial attack and grow large, the 
agencies respond using an interagency system that mobilizes additional 
firefighting assets from federal, state, and local agencies, as well as 
private contractors, regardless of which agency or agencies have 
jurisdiction over the burning lands. Federal agencies typically fund 
the costs of these activities from their wildland fire suppression 
accounts.
    In addition to preparing for and suppressing fires, the agencies 
attempt to reduce the potential for severe wildland fires, lessen the 
damage caused by fires, limit the spread of flammable invasive species, 
and restore and maintain healthy ecosystems by reducing potentially 
hazardous vegetation that can fuel fires. The agencies generally remove 
or modify hazardous vegetation using prescribed fire (that is, fire 
deliberately set in order to restore or maintain desired vegetation 
conditions), mechanical thinning, herbicides, certain grazing methods, 
or combinations of these and other approaches. The agencies fund these 
activities from their fuel reduction accounts.
    Congress, the Office of Management and Budget, federal agency 
officials, and others have expressed concern about mounting federal 
wildland fire expenditures. Federal appropriations to the Forest 
Service and the Interior agencies to prepare for and respond to 
wildland fires, including appropriations for reducing fuels, have more 
than doubled, from an average of $1.2 billion from fiscal years 1996 
through 2000 to an average of $2.9 billion from fiscal years 2001 
through 2007 (see table 1). Adjusting for inflation, the average annual 
appropriations to the agencies for these Page 3 GAO-09-906T periods 
increased from $1.5 billion to $3.1 billion (in 2007 dollars). The 
Forest Service received about 70 percent and Interior about 30 percent 
of the appropriated funds. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

agencies' efforts to implement a new approach to managing wildland fire 
       have better positioned them to respond to fire effectively
    The Forest Service and the Interior agencies have improved their 
understanding of wildland fire's role on the landscape and have taken 
important steps toward improving their ability to cost-effectively 
protect communities and resources. Although the agencies have long 
recognized that fire could provide ecological benefits in some 
ecosystems, such as certain grassland and forest types, a number of 
damaging fires in the 1990s led them to develop the Federal Wildland 
Fire Management Policy.\4\ The policy formally recognizes not only that 
wildland fire can be beneficial in some areas, but also that fire is an 
inevitable part of the landscape and, moreover, that past attempts to 
suppress all fires have been in part responsible for making recent 
fires more severe. Under this policy, the agencies abandoned their 
attempt to put out every wildland fire, seeking instead to (1) make 
communities and resources less susceptible to being damaged by wildland 
fire and (2) respond to fires so as to protect communities and 
important resources at risk but also to consider both the cost and 
long-term effects of that response. By emphasizing firefighting 
strategies that focus on land management objectives, rather than 
seeking to suppress all fires, the agencies are increasingly using less 
aggressive fire fighting strategies-strategies that can not only reduce 
costs but also be safer for firefighters by reducing their exposure to 
unnecessary risks, according to agency fire officials.
---------------------------------------------------------------------------
    \4\ U.S. Department of Agriculture and U.S. Department of the 
Interior, Federal Wildland Fire Management Policy and Program Review 
(Washington, D.C., December 1995). This policy was subsequently 
reaffirmed and updated in 2001. Department of the Interior, Department 
of Agriculture, Department of Energy, Department of Defense, Department 
of Commerce, Environmental Protection Agency, Federal Emergency 
Management Agency, and National Association of State Foresters, Review 
and Update of the 1995 Federal Wildland Fire Management Policy 
(Washington, D.C., January 2001).
---------------------------------------------------------------------------
    To help them better achieve the federal wildland fire management 
policy's vision, the Forest Service and the Interior agencies in recent 
years have taken several steps to make communities and resources less 
susceptible to damage from wildland fire. These steps include reducing 
hazardous fuels, in an effort to keep wildland fires from spreading 
into the wildland-urban interface and to help protect important 
resources by lessening a fire's intensity. As part of this effort, the 
agencies reported they have reduced fuels on more than 29 million acres 
from 2001 through 2008. The agencies have also nearly completed their 
geospatial data and modeling system, LANDFIRE, as we recommended in 
2003.\5\ LANDFIRE is intended to produce consistent and comprehensive 
maps and data describing vegetation, wildland fuels, and fire regimes 
across the United States.\6\ Such data are critical to helping the 
agencies (1) identify the extent, severity, and location of wildland 
fire threats to the nation's communities and resources; (2) predict 
fire intensity and rate of spread under particular weather conditions; 
and (3) evaluate the effect that reducing fuels may have on future fire 
behavior. LANDFIRE data are already complete for the contiguous United 
States, although some agency officials have questioned the accuracy of 
the data, and the agencies expect to complete the data for Alaska and 
Hawaii in 2009.
---------------------------------------------------------------------------
    \5\ GAO, Wildland Fire Management: Additional Actions Required to 
Better Prioritize Lands Needing Fuels Reduction, GAO-03-805 
(Washington, D.C.: Aug. 15, 2003).
    \6\ A fire regime generally classifies the role that wildland fire 
plays in a particular ecosystem on the basis of certain 
characteristics, such as the average number of years between fires and 
the typical severity of fire under historic conditions.
---------------------------------------------------------------------------
    The agencies have also begun to improve their processes for 
allocating fuel reduction funds to different areas of the country and 
for selecting fuel reduction projects, as we recommended in 2007.\7\ 
The agencies have started moving away from ``allocation by tradition'' 
toward a more consistent, systematic allocation process. That is, 
rather than relying on historical funding patterns and professional 
judgment, the agencies are developing a process that also considers 
risk, effectiveness of fuel reduction treatments, and other factors. 
Despite these improvements, further action is needed to ensure that the 
agencies' efforts to reduce hazardous fuels are directed to areas at 
highest risk. The agencies, for example, still lack a measure of the 
effectiveness of fuel reduction treatments and therefore lack 
information needed to ensure that fuel reduction funds are directed to 
the areas where they can best minimize risk to communities and 
resources. Forest Service and Interior officials told us that they 
recognize this shortcoming and that efforts are under way to address 
it; these efforts are likely to be long term involving considerable 
research investment, but they have the potential to improve the 
agencies' ability to assess and compare the cost-effectiveness of 
potential treatments in deciding how to optimally allocate scarce 
funds.
---------------------------------------------------------------------------
    \7\ GAO, Wildland Fire Management: Better Information and a 
Systematic Process Could Improve Agencies' Approach to Allocating Fuel 
Reduction Funds and Selecting Projects, GAO-07-1168 (Washington, D.C.: 
Sept. 28, 2007).
---------------------------------------------------------------------------
    The agencies have also taken steps to foster fire-resistant 
communities. Increasing the use of protective measures to mitigate the 
risk to structures from wildland fire is a key goal of the National 
Fire Plan. The plan encourages, but does not mandate, state or local 
governments to adopt laws requiring homeowners and homebuilders to take 
measures-such as reducing vegetation and flammable objects within an 
area of 30 to 100 feet around a structure, often called creating 
defensible space, and using fire-resistant roofing materials and 
covering attic vents with mesh screens-to help protect structures from 
wildland fires. Because these measures rely on the actions of 
individual homeowners or homebuilders, or on laws and land-use planning 
affecting private lands, achieving this goal is primarily a state and 
local government responsibility. Nonetheless, the Forest Service and 
the Interior agencies have helped sponsor the Firewise Communities 
program, which works with community leaders and homeowners to increase 
the use of fire-resistant landscaping and building materials in areas 
of high risk.\8\ Federal and state agencies also provide grants to help 
pay for creating defensible space around private homes.
---------------------------------------------------------------------------
    \8\ The Firewise Communities program is the primary national effort 
to educate homeowners about wildland fire risks. The program is jointly 
sponsored by the International Association of Fire Chiefs, National 
Emergency Management Association, National Association of State Fire 
Marshals, National Association of State Foresters, National Fire 
Protection Association, Federal Emergency Management Agency, U.S. Fire 
Administration, Forest Service, Bureau of Indian Affairs, Bureau of 
Land Management, Fish and Wildlife Service, and the National Park 
Service. Numerous state and local fire and forestry officials also 
participate in the program. See http://www.firewise.org/ for more 
information.
---------------------------------------------------------------------------
    In addition, the agencies have made improvements laying important 
groundwork for enhancing their response to wildland fire, including:

  <bullet> Implementing the Federal Wildland Fire Management Policy.--
        The Federal Wildland Fire Management Policy directs each agency 
        to develop a fire management plan for all areas they manage 
        with burnable vegetation. Without such plans, agency policy 
        does not allow the use of the entire range of wildland fire 
        response strategies, including less aggressive strategies, and 
        therefore the agencies must attempt to suppress a fire 
        regardless of any benefits that might come from allowing it to 
        burn. We reported in 2006 that about 95 percent of the 
        agencies' 1,460 individual land management units had completed 
        the required plans. The policy also states that the agencies' 
        responses to a wildland fire are to be based on the 
        circumstances of a given fire and the likely consequences to 
        human safety and natural and cultural resources. Interagency 
        guidance on implementing the policy, adopted in 2009, clarifies 
        that the full range of fire management strategies and tactics 
        are to be considered when responding to every wildland fire, 
        and that a single fire may be simultaneously managed for 
        different objectives. Both we and the Department of 
        Agriculture's Inspector General had criticized the previous 
        guidance,\9\ which required each fire to be managed either for 
        suppression objectives-that is, to put out the fire as quickly 
        as possible-or to achieve resource benefits-that is, to allow 
        the fire to burn to gain certain benefits such as reducing 
        fuels or seed regeneration. By providing this flexibility, the 
        new guidance should help the agencies better achieve management 
        objectives and help contain the long-term costs of fire 
        management.
---------------------------------------------------------------------------
    \9\ GAO, Wildland Fire Management: Lack of Clear Goals or a 
Strategy Hinders Federal Agencies' Efforts to Contain the Costs of 
Fighting Fires, GAO-07-655 (Washington, D.C.: June 1, 2007).
---------------------------------------------------------------------------
  <bullet> Improving fire management decisions.--The agencies have 
        recently undertaken several efforts to improve decisions about 
        fire fighting strategies. In one such effort, the agencies in 
        2009 began to use a new analytical tool, known as the wildland 
        fire decision support system. This new tool helps line officers 
        and fire managers analyze various factors-such as the fire's 
        current location, adjacent fuel conditions, nearby structures 
        and other highly valued resources, and weather forecasts-in 
        determining the strategies and tactics to adopt. For example, 
        the tool generates a map illustrating the probability that a 
        particular wildland fire, barring any suppression actions, will 
        burn a certain area within a specified time, and the structures 
        or other resources that may therefore be threatened. Having 
        such information can help line officers and fire managers 
        understand the resources at risk and identify the most 
        appropriate response-for example, whether to devote substantial 
        resources in attempting full and immediate suppression or to 
        instead take a less intensive approach, which may reduce risks 
        to firefighters and cost less. Other efforts include (1) 
        establishing experience and training requirements for line 
        officers to be certified to manage fires of different levels of 
        complexity, and (2) forming four teams staffed with some of the 
        most experienced fire managers to assist in managing wildland 
        fires. The Forest Service has also experimented in recent years 
        with several approaches for identifying ongoing fires where 
        suppression actions are unlikely to be effective and for 
        influencing strategic decisions made during those fires, in 
        order to help contain costs and reduce risk to firefighters. 
        Although these efforts are new, and we have not fully evaluated 
        them, we believe they have the potential to help the agencies 
        strengthen how they select fire fighting strategies. By 
        themselves, however, these efforts do not address certain 
        critical shortcomings. We reported in 2007, for example, that 
        officials in the field have few incentives to consider cost 
        containment in making critical decisions affecting suppression 
        costs, and that previous studies had found that the lack of a 
        clear measure to evaluate the benefits and costs of alternative 
        fire fighting strategies fundamentally hindered the agencies' 
        ability to provide effective oversight.\10\
---------------------------------------------------------------------------
    \10\ GAO-07-655.
---------------------------------------------------------------------------
  <bullet> Acquiring and using fire fighting assets effectively.--The 
        agencies have continued to make improvements-including better 
        systems for contracting with private vendors to provide fire 
        fighting assets and for dispatching assets to individual fires-
        in how they determine the fire fighting assets they need and in 
        how they acquire and use those assets, although further action 
        is needed. For example, although the agencies in 2009 began 
        deploying an interagency budget-planning system known as fire 
        program analysis (FPA) to address congressional direction that 
        they improve how they determine needed fire fighting assets, 
        our 2008 report on FPA's development identified several 
        shortcomings that limit FPA's ability to meet certain key 
        objectives.\11\ FPA was intended to help the agencies develop 
        their wildland fire budget requests and allocate funds by, 
        among other objectives, (1) providing a common budget framework 
        to analyze firefighting assets without regard for agency 
        jurisdictions; (2) examining the full scope of fire management 
        activities; (3) modeling the effects over time of differing 
        strategies for responding to wildland fires and treating lands 
        to reduce hazardous fuels; and (4) using this information to 
        identify the most cost-effective mix and location of federal 
        wildland fire management assets. We reported in 2008 that FPA 
        shows promise in achieving some of the key objectives 
        originally established for it but that the approach the 
        agencies have taken hampers FPA from meeting other key 
        objectives, including the ability to project the effects of 
        different levels of fuel reduction and fire fighting strategies 
        over time. We therefore concluded that agency officials lack 
        information that would help them analyze the extent to which 
        increasing or decreasing funding for fuel reduction and 
        responding more or less aggressively to fires in the short term 
        could affect the expected cost of responding to wildland fires 
        over the long term. Senior agency officials told us in 2008 
        that they were considering making changes to FPA that may 
        improve its ability to examine the effects over time of 
        different funding strategies. The exact nature of these 
        changes, or how to fund them, has yet to be determined. 
        Officials also told us the agencies are currently working to 
        evaluate the model's performance, identify and implement needed 
        corrections, and improve data quality and consistency. The 
        agencies intend to consider the early results of FPA in 
        developing their budget requests for fiscal year 2011, although 
        officials told us they will not rely substantially on FPA's 
        results until needed improvements are made. As we noted in 
        2008, the approach the agencies took in developing FPA provides 
        considerable discretion to agency decision makers and, although 
        providing the flexibility to consider various options is 
        important, doing so makes it essential that the agencies ensure 
        their processes are fully transparent.
---------------------------------------------------------------------------
    \11\ GAO Wildland Fire Management: Interagency Budget Tool Needs 
Further Development to Fully Meet Key Objectives, GAO-09-68 
(Washington, D.C.: Nov. 24, 2008).

    In addition, previous studies have found that agencies sometimes 
        use more, or more-costly, fire fighting assets than necessary, 
        often in response to political or social pressure to 
        demonstrate they are taking all possible action to protect 
        communities and resources. Consistent with these findings, fire 
        officials told us they were pressured in 2008 to assign more 
        fire fighting assets than could be effectively used to fight 
        fires in California. More generally, previous studies have 
        found that air tankers may be used to drop flame retardants 
        when on-the-ground conditions may not warrant such drops. 
        Aviation activities are expensive, accounting for about one-
        third of all fire fighting costs on a large fire. We believe 
        that providing clarity about when different types of fire 
        fighting assets can be used effectively could help the agencies 
        resist political and social pressure to use more assets than 
        they need.

AGENCIES HAVE YET TO TAKE CERTAIN KEY ACTIONS THAT WOULD SUBSTANTIALLY 
               IMPROVE THEIR MANAGEMENT OF WILDLAND FIRE

    Despite the important steps the agencies have taken, much work 
remains. We have previously recommended several key actions that, if 
completed, would improve the agencies' management of wildland fire. 
Specifically, the agencies need to:

  <bullet> Develop a cohesive strategy.--Completing an investment 
        strategy that lays out various approaches for reducing fuels 
        and responding to wildland fires and the estimated costs 
        associated with each approach and the trade-offs involved-what 
        we have termed a cohesive strategy-is essential for Congress 
        and the agencies to make informed decisions about effective and 
        affordable long-term approaches for addressing the nation's 
        wildland fire problems. The agencies have concurred with our 
        recommendations to develop a cohesive strategy but have yet to 
        develop a strategy that clearly formulates different approaches 
        and associated costs,\12\ despite our 12Although the agencies 
        issued a document titled Protecting People and Natural 
        Resources: A Cohesive Fuels Treatment Strategy in 2006, this 
        document did not identify long-term options or associated 
        funding for reducing fuels and responding to wildland fires, 
        elements we believe are critical to a cohesive strategy. Page 
        10 GAO-09-906T repeated calls to do so.\13\ In May 2009, agency 
        officials told us they had begun planning how to develop a 
        cohesive strategy but were not far enough along in developing 
        it to provide further information.
---------------------------------------------------------------------------
    \12\ Although they have yet to complete a cohesive strategy, the 
agencies have nearly completed two projects-LANDFIRE and FPA-they have 
identified as being necessary to development of a cohesive strategy. 
However, the shortcomings we identified in FPA may limit its ability to 
contribute to the agencies' development of a cohesive strategy.
    \13\ GAO, Wildland Fire Management: Federal Agencies Lack Key Long-
and Short-Term Management Strategies for Using Program Funds 
Effectively, GAO-08-433T (Washington, D.C.: Feb. 12, 2008); Wildland 
Fire Management: Update on Federal Agency Efforts to Develop a Cohesive 
Strategy to Address Wildland Fire Threats, GAO-06-671R (Washington, 
D.C.: May 1, 2006); Wildland Fire Management: Important Progress Has 
Been Made, but Challenges Remain to Completing a Cohesive Strategy, 
GAO-05-147 (Washington, D.C: Jan. 14, 2005); Western National Forests: 
A Cohesive Strategy Is Needed to Address Catastrophic Wildfire Threats, 
GAO/RCED-99-65 (Washington, D.C: Apr. 2, 1999).

    Because of the critical importance of a cohesive strategy to 
        improve the agencies' overall management of wildland fire, we 
        encourage the agencies to complete one and begin implementing 
        it as quickly as possible. The Federal Land Assistance, 
        Management, and Enhancement Act, introduced in March 2009 and 
        sponsored by the chairman of this committee, would require the 
        agencies to produce, within 1 year of the act's enactment, a 
        cohesive strategy consistent with our previous 
        recommendations.\14\ Although they have yet to complete a 
        cohesive strategy, the agencies have nearly completed two 
        projects--LANDFIRE and FPA--they have identified as being 
        necessary to development of a cohesive strategy. However, the 
        shortcomings we identified in FPA may limit its ability to 
        contribute to the agencies' development of a cohesive strategy.
---------------------------------------------------------------------------
    \14\ S. 561, 111th Cong. (1st sess., 2009) H.R. 1404, 111th Cong. 
(1st sess., 2009).
---------------------------------------------------------------------------
  <bullet> Establish a cost-containment strategy.--We reported in 2007 
        that although the Forest Service and the Interior agencies had 
        taken several steps intended to help contain wildland fire 
        costs, they had not clearly defined their cost-containment 
        goals or developed a strategy for achieving those goals-steps 
        that are fundamental to sound program management.\15\ The 
        agencies disagreed, citing several agency documents that they 
        argued clearly define their goals and objectives and make up 
        their strategy to contain costs.\16\ Although these documents 
        do provide overarching goals and objectives, they lack the 
        clarity and specificity needed by land management and fire 
        fighting officials in the field to help manage and contain 
        wildland fire costs. Interagency policy, for example, 
        established an overarching goal of suppressing wildland fires 
        at minimum cost, considering firefighter and public safety and 
        importance of resources being protected, but the agencies have 
        established neither clear criteria for weighing the relative 
        importance of the often-competing elements of this broad goal, 
        nor measurable objectives for determining if the agencies are 
        meeting the goal. As a result, despite the improvements the 
        agencies are making to policy, decision support tools, and 
        oversight, we believe that managers in the field lack a clear 
        understanding of the relative importance that the agencies' 
        leadership places on containing costs and-as we concluded in 
        our 2007 report-are therefore likely to continue to select fire 
        fighting strategies without duly considering the costs of 
        suppression. Forest Service officials told us in July 2009 that 
        although they are concerned about fire management costs, they 
        are emphasizing the need to select firefighting strategies that 
        will achieve land management objectives and reduce unnecessary 
        risks to firefighters, an emphasis they believe may, in the 
        long run, also help them contain costs. Nonetheless, we 
        continue to believe that our recommendations, if effectively 
        implemented, would help the agencies better manage their cost-
        containment efforts and improve their ability to contain 
        wildland fire costs.
---------------------------------------------------------------------------
    \15\ GAO-07-655.
    \16\ Department of the Interior, Department of Agriculture, 
Department of Energy, Department of Defense, Department of Commerce, 
Environmental Protection Agency, Federal Emergency Management Agency, 
and National Association of State Foresters, Review and Update of the 
1995 Federal Wildland Fire Management Policy (Washington, D.C.: January 
2001). Department of Agriculture, Department of the Interior, and 
Western Governors' Association, A Collaborative Approach for Reducing 
Wildland Fire Risks to Communities and the Environment, 10-Year 
Strategy Implementation Plan (Washington, D.C.: December 2006).
---------------------------------------------------------------------------
  <bullet> Clearly define financial responsibilities for fires that 
        cross jurisdictions.--Protecting the nation's communities is 
        both one of the key goals of wildland fire management and one 
        of the leading factors contributing to rising fire costs. A 
        number of relatively simple steps-such as using fire-resistant 
        landscaping and building materials-can dramatically reduce the 
        likelihood of damage to a structure from wildland fire. 
        Although nonfederal entities-including state forestry entities 
        and tribal, county, city, and rural fire departments-play an 
        important role in protecting communities and resources and 
        responding to fires, we reported in 2006 that federal officials 
        were concerned that the existing framework for sharing 
        suppression costs among federal and nonfederal entities 
        insulated state and local governments from the cost of 
        providing wildland fire protection in the wildland-urban 
        interface.\17\ As a result, there was less incentive for state 
        and local governments to adopt laws-such as building codes 
        requiring fire-resistant building materials in areas at high 
        risk of wildland fires-that, in the long run, could help reduce 
        the cost of suppressing wildland fires. We therefore 
        recommended that the federal agencies work with relevant state 
        entities to clarify the financial responsibility for fires that 
        burn, or threaten to burn, across multiple jurisdictions and 
        develop more specific guidance as to when particular cost-
        sharing methods should be used. The agencies have updated 
        guidance on when particular cost-sharing methods should be 
        used, although we have not evaluated the effect of the updated 
        guidance; the agencies, however, have yet to clarify the 
        financial responsibility for fires that threaten multiple 
        jurisdictions. Without such clarification, the concerns that 
        the existing framework insulates nonfederal entities from the 
        cost of protecting the wildland-urban interface from fire-and 
        that the federal government, therefore, would continue to bear 
        more than its share of that cost-are unlikely to be addressed.
---------------------------------------------------------------------------
    \17\ GAO, Wildland Fire Suppression: Lack of Clear Guidance Raises 
Concerns about Cost Sharing between Federal and Nonfederal Entities, 
GAO-06-570 (Washington, D.C.: May 30, 2006).
---------------------------------------------------------------------------
  <bullet> Mitigate effects of rising fire costs on other agency 
        programs.--The sharply rising costs of managing wildland fires 
        have led the Forest Service and the Interior agencies to 
        transfer funds from other programs to help pay for fire 
        suppression, disrupting or delaying activities in these other 
        programs. Better methods of estimating the suppression funds 
        the agencies request, as we recommended in 2004,\18\ could 
        reduce the likelihood that the agencies would need to transfer 
        funds from other accounts, yet the agencies continue to use an 
        estimation method with known problems. A Forest Service 
        official told us the agency had analyzed alternative methods 
        for estimating needed suppression funds but determined that no 
        better method was available. Because the agencies have had to 
        transfer funds in each of the last 3 years, however, a more 
        accurate method for estimating suppression costs may still be 
        needed. To further reduce the likelihood of transferring funds 
        from the agencies' other programs to cover suppression costs, 
        our 2004 report also noted, Congress could consider 
        establishing a reserve account to fund emergency wildland fire 
        fighting. Congress, for example, could provide either a 
        specified amount (known as a definite appropriation) or as much 
        funding as the agencies need to fund emergency suppression 
        (known as an indefinite appropriation). Establishing a reserve 
        account with a definite appropriation would provide the 
        agencies with incentives to contain suppression costs within 
        the amount in the reserve account, but depending on the size of 
        the appropriation and the severity of a fire season, 
        suppression costs could still exceed the funds reserved, and 
        the agencies might still need to transfer funds from other 
        programs. An account with an indefinite appropriation, in 
        contrast, would eliminate the need for transferring funds from 
        other programs but would offer no inherent incentives for the 
        agencies to contain suppression costs. Furthermore, both 
        definite and indefinite appropriations could raise the overall 
        federal budget deficit, depending on whether funding levels for 
        other agency or government programs are reduced. The Federal 
        Land Assistance, Management, and Enhancement Act proposes 
        establishing a wildland fire suppression reserve account; the 
        administration's budget overview for fiscal year 2010 also 
        proposes a $282 million reserve account for the Forest Service 
        and a $75 million reserve account for the Interior to provide 
        funding for fire fighting when the appropriated suppression 
        funds are exhausted.
---------------------------------------------------------------------------
    \18\ GAO, Wildfire Suppression: Funding Transfers Cause Project 
Cancellations and Delays, Strained Relationships, and Management 
Disruptions, GAO-04-612 (Washington, D.C.: June 2, 2004).

    We are making no new recommendations at this time. Rather, we 
        believe that our previous recommendations-which the agencies 
        have generally agreed with-could, if implemented, substantially 
        assist the agencies in capitalizing on the important progress 
        they have made to date in responding to the nation's growing 
        wildland fire problem. We discussed the factual information in 
        this statement with agency officials and incorporated their 
---------------------------------------------------------------------------
        comments where appropriate.

    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the 
Subcommittee may have at this time.

    Senator Wyden. Ms. Dalton, thank you and thank you for 
being so brief as well. I'm going to have a couple questions 
now. Then I'm going to turn it over to the Ranking Member, 
Senator Murkowski and Senator Udall will chair. My apologies to 
the witnesses, this is also, health care week, and so there is 
a lot on the docket.
    First question for you, Mr. Jensen, if I might. The 
evidence indicates that something like 2 percent of the fires 
result in 85 percent of the suppression costs. Can you just 
outline for the committee what these fires are like, the 2 
percent? Particularly why they are so expensive for the agency?
    Mr. Jensen. Absolutely. Thank you for that question.
    Those fires are essentially the large fires we see out 
there in the landscape. They tend to be very intense. They are 
generally referred to and known as these catastrophic wildfires 
that we're seeing.
    They get that large because these are the ones that are 
escaping initial attack. It is key that we maintain the initial 
attack capability to keep these fires small. That's a key cost 
containment strategy for the agencies going forward from here.
    Senator Wyden. So Ms. Dalton, we have gone round and round 
over the years on this question of what the agencies are doing 
to reduce fuels. This incredibly powerful force on the forest 
floor that I think is largely responsible for these virtual 
infernos that we're seeing around the country. We have gone 
round and round with the agencies over the last few years.
    This committee has had a lot of witnesses, including the 
General Accounting Office, timber companies, environmentalists, 
the Forest Service, land managers. It all suggests from the 
experts that the number of acres that are being treated to 
actually reduce this problem of tremendous fuels buildup is 
unreliable. It's misleading. It's counterproductive.
    In effect what we are told is that the current system 
creates this kind of bizarre incentive for the land managers to 
go out and treat the easiest and cheapest, you know, acres 
instead of focusing on treating the most important, you know, 
acres in the most cost effective way. There have been blue 
ribbon committees on this. This seems to have generated, you 
know, more paper than practically any issue imaginable.
    Now your testimony indicates that you all are making new 
efforts to address this. Now we have heard this as well before. 
What I'd like to have you set out on the record is what are you 
going to do differently on this question of acres being treated 
and why do you think that approach will allow some real 
progress to be made?
    Ms. Dalton. Senator, what we've recommended is that the 
agencies develop a comprehensive strategy that would look more 
at the long term--what are the long term threats of fire and as 
decisions are being made about fuel reduction, not to look at 
the number, trying to get the maximum number of acres treated. 
But identify those acres that pose the greatest threat of fire, 
not just now, but in the longer term.
    That's why we feel it's critical that the agencies take 
that longer term--develop that longer term cohesive strategy 
that will look at what's going to be the cost to manage wild 
land fires, not just today, but next year and the following 
year.
    Senator Wyden. I've heard that referred to often in the 
past. Again, specifically what's going to be done differently? 
What is going to, are you going to identify acres that need it 
most differently? What can you tell us about the differences in 
the approach that you're going to take?
    We couldn't make a lot of headway in the last 
administration. So I'm really going to push hard to try to find 
out specifically what's going to be done now. So you've said 
you're going to look at the long term. Can you amplify with at 
least some specifics as to what that's going to consist of?
    Ms. Dalton. Senator, what we've done is made the 
recommendations to the Forest Service and the Department of the 
Interior. They have indicated that they are in fact, developing 
such a cohesive strategy, but it's in the very early stages. We 
haven't seen that strategy yet.
    Senator Wyden. I'm sorry. I needed to ask you and Jay. I 
wanted to know from you what you were advocating specifically 
in terms of long term changes. Then I need to know what Mr. 
Jensen is going to do.
    So again, if you will tell us what you're advocating 
specifically in terms of long term changes. Then Mr. Jensen, if 
you could tell me what you specifically are going to change.
    Ms. Dalton. Yes, what we would be advocating is, as I said, 
a cohesive strategy that looks at all of the options that are 
available to the fire fighting agencies.
    What the costs are and what are the tradeoffs?
    Trying to weigh those and have those as a total picture of 
what the fire problem is.
    What are the resources that we have available?
    What's the best use of those resources?
    How do you effectively respond to the threats, both today 
and tomorrow in the most cost effective way?
    That when we talk fuel reduction it means you may not want 
to clear the easiest acres, but those that present the greatest 
fire threat. They may be those acres that are closest to, for 
example, an urban wild land interface where you've got 
communities that could potentially be threatened by a wildfire. 
Or, it's a difficult task to clear that forest because of dense 
growth, as opposed to something that would use a more less 
expensive approach, where there isn't as great a threat on 
these lands.
    Senator Wyden. The more specifics you can give us, the 
better. Now let's go to you, Mr. Jensen, for your crack at the 
specifics of what might be done differently on the acres 
treated question now.
    Mr. Jensen. I'm glad you're asking that. We've been batting 
this one around for quite some time. The Agency over the past 
year has instituted a new hazardous fuels prioritization 
allocation mechanism which basically takes into account 
wildfire potential, the values at risk, past performance of the 
units conducting those activities and any ongoing restoration 
efforts in the area.
    It's an interesting notion that we need to be, and one that 
I would agree with that we need to be focusing on quality 
acres, not just quantity acres here. One good way to do that is 
to focus in on those community wildfire protection plans where 
communities have made statements of where those values are most 
at risk and where they'd like to see those treatments.
    Senator Wyden. But that's what the agency has done over the 
last few years. That's what we continue to get testimony isn't 
getting the job done. What I'm trying to figure out is what's 
going to change?
    Mr. Jensen. We'd like to think this administration is going 
to be looking at it in a different light.
    Senator Wyden. What would that light be?
    Mr. Jensen. I think taking this more seriously in terms of 
looking at wildfire potential, those values at risk and turning 
to those community wildfire protection plans for helping make 
those decisions and priorities.
    Senator Wyden. I'm going to hold the record open to see if 
you all amplify on that answer. Because what my understanding--
your first response to my question is that the agency has been 
looking at these various approaches for the last, you know, few 
years. Then you said we intend to take them more seriously.
    I'm looking for some specifics because what we have heard 
in the past is largely just a recycling of the various 
approaches that we then hear from the industry, from 
environmental folks and others are unreliable. So the more 
specifics we can get. When could you get us, for the record, 
more specifics about what the administration is going to do 
differently?
    Could we have that within 30 days?
    Mr. Jensen. Absolutely.
    Senator Wyden. Ok. Then for you, Ms. Dalton, if you have at 
the GAO some additional suggestions for how we can go about 
this task to get some more specifics that would be very helpful 
as well.
    You can probably see the reason I'm drilling in on this 
questions is we have just gone round and round on this for more 
hearings and more hours than I can begin to imagine. Then we 
have the industry, environmental people, scientists and others 
still say that we have this perverse incentive out there.
    So we've got to get it right. That's why we need more 
specific suggestions from folks at GAO. Why Mr. Jensen, I want 
to know what the administration is going to do differently.
    Senator Murkowski, your questions and Senator Udall we'll 
hear shortly of the Chair.
    Senator Murkowski. Thank you, Senator Wyden. The chairman 
has mentioned this ratio if you will of the percent of the 
fires that consume the vast amount of the suppression funding. 
I think he said that 2 percent of the fires consume 85 percent 
of the suppression funding. My notes say 3 percent of the fires 
consume 85 percent of the suppression funding.
    But whether it's 2 percent or whether it's 3 percent, I 
think we understand what we're dealing with. In looking at the 
President's proposed budget for FY10. That doesn't line up with 
how we are--with the reality that you've got between two and 3 
percent of the fires that consume 85 percent of the suppression 
funding.
    There's over a billion dollars that is proposed for the 
fire preparedness and the suppression accounts. Yet a 
relatively small amount than what is proposed for the reserve 
account. Ms. Suh and Mr. Jensen, you have both indicated the 
administration's support of the FLAME Act based on this 
contingency reserve here.
    But let me ask you Ms. Suh, if 85 percent of the 
suppression funding is consumed responding to 3 percent of the 
fires how do we reconcile what I perceive to be a mismatch 
between what the administration has recommended for fire 
suppression funding and the reality of where we know those 
dollars are spent? How do we resolve this?
    Ms. Suh. That's an excellent question. I would say first 
off with respect to budgeting fires, I think the trick 
historically has always been that even though we have these 
catastrophic fires that account again for 85 percent of the 
total costs, predicting where those fires will happen and when 
those fires will happen is kind of a guessing game every year. 
That's why we collectively use these 10 year averages to 
determine how much should be, essentially, budgeted for these 
potential contingencies.
    I think with the President's budget in 2010 we believe that 
it is an excellent first start at establishing a baseline where 
we could potentially be looking at our segregation of funds 
differently. Now the FLAME Act proposes a slightly different 
approach in that with a slightly different baseline. I think 
ultimately the opportunity here is for us to collectively work 
together to determine what appropriate baselines make the most 
sense.
    But again, the intent I think of both the FLAME Act and the 
contingency fund are really to take the emergency funds, these 
kinds of catastrophic emergency funds that eat up a lot of our 
regular budgets aside and start thinking of them differently. 
But in terms of figuring out what the total amount that should 
go in those funds should be, that's an ongoing conversation, 
very much look forward to having with you all.
    Senator Murkowski. I understand the fact that we don't 
really know. It is difficult to guess. That's why it makes 
sense to have this reserve fund that we build upon.
    Some years we're going to get lucky and we're not going to 
have the level of fires that we might see. We're not going to 
have the high catastrophes. But you can't count on that. That's 
why this reserve fund is important.
    Mr. Jensen, I wanted to ask you about the chart that you 
have, which displays the last 10 years in fire suppression. 
What is the line that is going up? I can anticipate what the 
bars are, but what is the line?
    Mr. Jensen. That's the 10-year average for which the 
suppression line is proposed every year in the budget.
    Senator Murkowski. Ok, so it is based off that line that 
you get the administration's budget. Then, for instance, these 
past 3 years, you've had the huge spikes that if we were to 
have had a reserve fund in place we would be able to pull from 
that pool as opposed to cannibalizing from other parts of the 
budget?
    Mr. Jensen. That's correct. If I might add just a tad. 
Trying to figure out what the right number is is really this 
mix of art and science. Because we never quite know what the 
fire season is going to be like.
    So we continue to improve our decision support tools to get 
a better handle on it. Things like the fire program analysis 
and budgeting measures that we have are giving us a better 
handle and allowing us to get closer to it. But the 10-year 
average is one that we've worked from in the past.
    Senator Murkowski. In looking at that visual there in at 
least, 6, or 7 of the past 10 years, we have not guessed right. 
Given what we're seeing with the wildfires in this country and 
the push with the urban interface and the reality that we've 
got some issues that are driving up the cost. Don't we just see 
us missing, missing. quite dramatically on this rolling 
average?
    Mr. Jensen. I think your point is well taken. We can do 
better in this. That's what I think this dialog here today is 
starting to get down. Talking about the contingent reserve 
account in the President's budget and what the FLAME has to 
offer and how they complement each other in trying to figure 
out the best path forward is how we're going to get through 
this.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Udall [presiding]. Thank you, Senator Murkowski. 
Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman and thank you to 
all of our panelists for being here today. I'm from New 
Hampshire, one of the states that suffers less from large 
forest fires, but is affected by the budget constraints that 
happened when we have large fires in the West that we haven't 
budgeted for. I wonder if any of you could talk to some of the 
challenges that the current system presents for states like New 
Hampshire where we have a lot of forests that don't have fires, 
but are very much affected by what's happening because of our 
current budget situation?
    I don't know who wants to respond to that.
    Mr. Jensen. I'll be happy to jump in. Huge impacts. The 
ability of the agency to deliver upon the rest of its programs 
is severely impacted. When we get to those points in the fire 
season which typically tends to be anywhere from now through 
the end of the year, the rest of the Agency's program of work 
has to be turned toward and looked to to try and fill those 
holes.
    When it comes to states in the Northeast, other programs 
like forest health, maybe urban forest tree, forest legacy 
programs, often if they still have money in their accounts, 
we're forced to turn to those other programs to try to make up 
for the shortfalls on the fire side.
    Senator Shaheen. Thank you. I think it's important to point 
out. Most people think of our big forests all being out West, 
but actually the three most heavily forested states in the 
country are in the East.
    They're Maine, No. 1. New Hampshire, No. 2 and West 
Virginia, No. 3. So we are very much affected even though we 
may not be affected by the wildfires.
    One of the things that I've been reading about the cause of 
so many of these dramatic fires that we've seen in recent years 
is that climate change has had an impact on what's going on in 
rainfall and particularly in some of the states in the West. 
One of the concerns that has been expressed about legislation 
that we might be considering this year is the cost of 
addressing climate change in legislation. But as we're talking 
about the tremendous costs for fighting fires it seems to me 
that there are tradeoffs as we're talking about what the costs 
are.
    So as you all have looked at what's happening with 
wildfires. To what extent do you attribute the causes to what 
is happening with climate change?
    Ms. Suh. It certainly depends on the area, Senator. 
Although it's clear that the impact of climate change in many 
parts of the country, particularly in the interior west are 
profound. Just one example from Senator Udall's State: the 
beetle kill in the pine die off is significant. The fuel source 
that now is representative of all those dead and dying trees is 
a significant concern for the catastrophic wildfires we've just 
been talking about. That can be directly attributed to the fact 
that those beetles live longer because the winters are less 
cold. So there's this explosion in the insect population. So 
how we begin to address those things, I think both by a much 
more robust strategy with respect to prioritizing hazardous 
fuels reduction as well as through an adaptation approach where 
the land management agencies are taking a much more aggressive, 
I think, and much more comprehensive view of what adaptation 
means and the fact that adaptation in many ways means the 
restoration, the long term restoration of many of these 
changing ecological systems.
    So it's an excellent point. I think, again, the agencies, 
at least within the Department of the Interior are looking at 
it as a kind of multipronged type of potential solution.
    Senator Shaheen. Does anyone want to add to that? Anyone 
else on the panel?
    Mr. Jensen. Wholeheartedly agree.
    Senator Shaheen. Thank you. As a former Governor normally I 
don't like dedicated funds. But this is a case where I think it 
makes sense to have a fund that we can use because obviously 
this problem is not going to go away. We've got to do a better 
job of addressing it.
    So thank you all.
    Senator Udall. Thank you, Senator Shaheen.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. As you 
clearly know in the West we are facing an unprecedented 
challenge to forest health, especially Wyoming and in Colorado 
due to bark beetle infestation. It's spreading further and 
faster than ever before.
    In the Medicine Bow National Forest alone we have nearly 
500,000 acres of standing dead timber due to bark beetles. 
Beetle infested acres doubled between 2007, 2008 and every 
forest in Wyoming is affected. Without swift action by land 
managers those infested trees certainly will become fuel for 
wildfires.
    Yet the Forest Service did not spend a single dime of 
stimulus money to combat this problem in Wyoming. The Agency 
dedicated resources to States without any Forest Service land. 
The Agency dealt with forest health in every neighboring State 
surrounding Wyoming. I know the Forest Service has heard from 
our delegation as well as from our Governor.
    So, no money went to the severe forest health threats in 
Wyoming. This, to me, is not just a missed opportunity, but 
really a disrespect to the folks of Wyoming who live and work 
in these forests. You know, I've been critical of the stimulus 
package.
    Yesterday in the Washington Post, economist Robert 
Samuelson wrote a column called the Squandered Stimulus. He 
said, ``The program crafted by Obama and the Democratic 
Congress wasn't engineered to maximize its economic impact.'' 
It was mostly, he said, ``a political exercise designed to 
claim credit for any recovery, shower benefits on favorite 
constituency and signal support for fashionable causes.''
    I would like to have some real answers from the Department 
of Agriculture. I want to know exactly how the Agency is going 
to combat the effects of bark beetle infestation and how 
resources are going to be made available to do so. Mr. Jensen?
    Mr. Jensen. Senator, thank you. Before I get into that, if 
I might, wish you a happy birthday today.
    Senator Barrasso. Thank you very much.
    Senator Udall. You sent him a card. So that's good. That's 
impressive.
    [Laughter.]
    Mr. Jensen. We hope the opportunity of stimulus is not over 
yet. The Forest Service is not finished its disbursement of 
Recovery Act funds. We are keenly aware of the challenges that 
are occurring out there along the Rocky Mountain front 
extending up into Wyoming. The challenges around bark beetle in 
particular are immense. We do need to be redoubling our efforts 
which is going to include looking at new tools, other funds and 
opportunities to bring in the private sector to help solve some 
of these challenges.
    The Recovery Act itself, we believe that it is being and 
will continue to be and become more so a significant factor in 
helping rural communities, forested communities in particular 
get back onto their feet in large regard. We'll be happy to 
follow up with you to discuss any of the details and specifics 
about how that's unfolding.
    Senator Barrasso. I'd like to do that. I visited with our 
Governor Friday night in Cheyenne Frontier Days. You know, we 
need to ask about how this is unfolding. Also we need to talk 
about new resources to reducing our risk for catastrophic 
fires.
    Another way of looking at it is the need for good neighbor 
authority, to all of the states. You know, in terms of putting 
boots on the ground. Right now we have heavily affected areas, 
and I was driving through those last weekend in a couple of 
counties, Wyoming. In terms of being able to thin or remove 
dead trees. There's no permission for the states to do it.
    No permission for private folks to do it. Only the Federal 
Government can do it and right now you're not doing it. So are 
there thoughts of extending good neighbor authority to allow 
states and others to participate in this?
    Mr. Jensen. I think it is clear that we need to be looking 
at all the existing tools we have and perhaps any, some new 
tools that are out there. Things like stewardship contracting 
could be a very useful mechanism. With the recent new moneys 
that have come through with emergency supplemental 
appropriations and looking at the Recovery Act, we're hoping 
that we can put that to good use there.
    Senator Barrasso. I appreciate that. We have a State 
forester who wants to get out and get some things done. Doesn't 
have permission, even though he does have some resources, but 
much of the need is on Federal land. So, he is not able to do 
the work.
    So we look forward to working with you. Thank you.
    Mr. Jensen. Thank you, Senator.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Barrasso. I would note 
for the record that this is also the birthday of Congressman 
John Salazar. He would characterize himself as the wiser and of 
course, older member of the Salazar family.
    [Laughter.]
    Senator Udall. But we want to wish both Senator Barrasso 
and Congressman Salazar the best.
    Let me turn back to Senator Murkowski. I know she has some 
additional questions for the panel.
    Senator Murkowski. Thank you, Mr. Chairman. Mr. Jensen, I 
wanted to ask you a couple questions about the modifications 
that the House of Representatives have made to the proposed 
FLAME Act. One of them is an addition that would allow for a 
plan, developed in coordination with the National Guard Bureau 
to maximize the use of National Guard resources to fight the 
wildfires.
    What is the administration's position on this particular 
addition to the FLAME Act?
    Mr. Jensen. The air resources that the National Guard and 
the ground resources that National Guard can bring to bear are 
a part of the solution that need to be. But we need to be able 
to look strategically at where the best investment, kind of 
going back to this notion of investing in the most high 
priority areas and all.
    Senator Murkowski. Do you get concerned at all with the 
fact that, you can't always rely on the National Guard when you 
need them? They might be off doing something else, responding 
to some other emergency which may be a higher priority. Yet you 
have counted them as among your assets to respond.
    Mr. Jensen. Indeed that's why it's important to make sure 
that we have the resources within the Agency itself and its 
cooperators to get after these problems. The National Guard and 
other resources will be part of the solution, but it's not one 
that we can rely on alone, nor should we focus too much of our 
efforts on.
    Senator Murkowski. In the 2005 Interior appropriations 
report the Forest Service was directed to provide a strategic 
plan. The plan was due by March 1, 2005, for procuring and 
managing critical assets, the aircraft and directing that the 
plan be developed with alternatives that include input provided 
by private industry. It's my understanding that this report has 
not been submitted. Do you have any status on such a report?
    Mr. Jensen. As we've arrived into Washington, DC, we've 
taken a look at that, what's been developed to date. We're 
currently reviewing that right now for such a release. We'll be 
running through processes to get some more visibility on that 
issue. Getting the right mix of aviation resources and assets 
is going to be key.
    Senator Murkowski. When do you figure you might be able to 
have that report?
    Mr. Jensen. We're in the process right now of looking at 
that report. I'm hoping and optimistic that by the end of the 
year we can get something out there.
    Senator Murkowski. It would be helpful if it could be 
before the end of the year recognizing that once you get the 
report then you want to be prepared for the next budget. If 
you're waiting until the end of the year, it would be my 
suggestion that you try to expedite that, if it could be done 
by September 30. It seems to me 2005 was a long time ago and I 
do appreciate the fact that you all have just come in, but it 
does seem to be a key priority to make sure that we have these 
assets that are out there. So if I could urge any expediency I 
would certainly do that.
    Then one final question. This is again a change that the 
House is proposing to the FLAME Act, regarding prescribed fires 
and notice of the fires.
    It requires that as part of the strategy before any 
prescribed fire is used on national Forest Service land, the 
owners of adjacent private land are notified in writing of the 
date and the scope. Do you have any idea how long this might 
take? What the cost might be for the Forest Service to figure 
out who the specific land owners are on these adjacent lands?
    Mr. Jensen. We haven't scoped out the details specific to 
that. But it's clear that it would be a significant investment 
and might even say a burden. The agency takes very seriously to 
the need to be a good neighbor.
    In that regard we currently have processes in effect that 
enable us to provide notice, contacts and we think that it 
seems to be working in certain ways. It seems to be working 
well. A strict requirement could potentially be overly 
restricting on the ability of the Agency to achieve the broader 
fire effort.
    Senator Murkowski. It's also tough. I know that when we 
have had prescribed burns up North you're really subject to a 
window of weather conditions, what is going on with the winds. 
If you had to provide for notification, to several of the folks 
that I represent, you know, they're literally scattered to the 
winds in terms of providing adequate notification in a very 
timely manner. It could be very difficult.
    Mr. Jensen. Alaska presents a very unique situation, but 
it's not just unique to Alaska there.
    Senator Murkowski. Yes.
    Mr. Jensen. I think the rest of the country sees some 
similar challenges.
    Senator Murkowski. I would agree. So it sounds like you are 
withholding judgment or perhaps not certain, actually how this 
provision coming over from the House might be implemented in 
the FLAME Act.
    Mr. Jensen. We think that the existing Agency forms and 
structures are more than adequate to be that good neighbor.
    Senator Murkowski. Alright. Good. I appreciate that. Thank 
you, Mr. Chairman.
    Senator Udall. Thank you, Senator Murkowski.
    Senator Shaheen.
    Senator Shaheen. Thank you. I just have one final question 
that I hope you could respond to. The Energy Committee examined 
the role of biomass when we did, particularly biomass on public 
lands when we considered the Energy Bill. I think it's clear 
that wise forest management practices are important not just to 
the health of the forest, but also can be very helpful as we're 
looking at our future energy needs.
    So I wonder if you could talk about the role of biomass in 
managing forests to mitigate wildfires.
    Mr. Jensen. Biomass is going to be an absolutely end 
utilization of that biomass is going to need to be a key part 
of where we approach the wildfire problem. Reduction of those 
fuels, recovery of those fuels and perhaps putting use into 
some sort of bio energy utilization, the creation of green jobs 
through those efforts. Done appropriately and sustainably--
appropriately scaled and done in a sustainable fashion will be 
key to that.
    We have a lot of experience out there with the communities 
knowing how to do that the right way. Working with existing 
industry as well to make sure that it's done in a way that is 
not a hindrance to those that are already out there. But if 
we're going to get ahead of--we're going to have difficulty 
addressing all of our wildfire problems if we don't find a way 
to involve the private sector in some of these solutions and 
utilization of that biomass is going to be key.
    Senator Shaheen. Thank you. No further questions, Mr. 
Chairman.
    Senator Udall. Thank you, Senator Shaheen. I'm going to 
wrap up this panel unless as I direct a few comments for the 
record and direct some questions to the panel that the other 
two senators have additional questions. But I want to thank the 
chairman for holding the hearing. I want to thank him for a 
chance to sit in on his stead.
    Senator Murkowski assures me that the Finance Committee and 
the HELP Committees are going to have a health care reform 
package shortly. That's where Senator Bingaman is today, I 
believe.
    I'm a co-sponsor of this bill. I also co-sponsored the 
original House bill with Chairman Rahall and during the last 
Congress when I had the opportunity to serve in the House. I'm 
pleased the administration has taken this important step.
    It is no doubt easier to pretend each year that we're not 
going to have to spend this money than to budget for it up 
front. It's also important to emphasize that there's a great 
need to reduce the severity of wildfires proactively in order 
to reduce the costs of suppressing and fighting those fires 
once they start raging. I remember being on the side of a fire, 
I'm sure Senator Murkowski has had this experience, perhaps 
Senator Shaheen as well.
    With Rick Cables, Director of the region, Mr. Jensen, you 
know, that Colorado is a member of and he used an analogy that 
this is like going to war when you fight a fire, although 
you're warring with Mother Nature. When you hear the sound of 
the aircraft, you hear the sound of the vehicles, you watch the 
firefighters on the ground, you're hearing the sound of money 
being spent. So this is obviously the 2, suppression and then 
proactively reducing fuel treatments interact.
    By putting this fund in place we go a long way to make sure 
those preventative fuels treatment projects are undertaken and 
completed. So we need to make sure that this fund is used for 
fire suppression costs so that there's little to no future need 
to supplement the fire suppression funds by drawing down funds 
for other critical agency work such as fuels treatment. It's 
not only about being honest about the cost of fighting 
wildfires, but about the impacts of failing to budget honestly, 
have had on other programs.
    Small businesses have had their contracts canceled. The 
important work on the ground gets canceled indefinitely each 
year when the money runs out. So again, I'm pleased that we're 
moving.
    In that spirit let me direct a couple of questions to the 
panel. I'd like to direct these comments to Mr. Jensen, 
Secretary Suh. Your testimony refers to the proposal for 
contingent reserve account on the administration's budget for 
fiscal year 2010.
    In a recent letter to the Director of OMB, Secretary 
Vilsack pointed out that the contingent reserve proposal, let 
me quote here, ``Does not resolve the core issue confronting 
the Agency with respect to funding large, catastrophic 
wildfires differently. It also provides a 1-year solution for 
what may likely be a constant pressure added to the Agency's 
budget for the foreseeable future. We believe that both the 
administration's proposal and the FLAME Act are meritorious.''
    Mr. Jensen, does the Secretary stand by that assessment?
    Mr. Jensen. The Secretary does stand by that assessment and 
clarifies and expands upon that in our testimony today. The 
simple fact I put forward is that the FLAME Act and the 
President's budget complement one another. There's going to be 
a need to find a way to make the two of them work to get ahead 
of this problem.
    Senator Udall. Let me turn to Secretary Suh. Does Secretary 
Salazar share that view?
    Ms. Suh. He does. Secretary Salazar certainly supports the 
administration's budget. I think we recognize that the FLAME 
Act, in particular, would provide a permanency in the statute 
that the budget does not. We fully agree with my colleagues at 
the Department of Agriculture that the two are very 
complementary.
    The contingency fund & FLAME Act Complement each other. we 
look forward to working with you all to determine how we get to 
some of the details with respect to the baselines. I think 
that's just the type of approach that Secretary Salazar would 
be in support of.
    Senator Udall. Thank you for that clarification. I don't 
think I have to urge the Department of the Interior and the 
Department of Agriculture to work together as we face this 
important challenge. I would note that Senator Shaheen and I, 
in the early stages of the hearing were in the back room 
talking about the history of the Department of Agriculture, the 
history of the Department of the Interior, why the land 
agencies are assumed the portfolios that they now have.
    We were ably assisted by Stan Sloss who is sitting here 
behind me who many of you know from his long service in the 
House. He's now over here on the Senate side. In sum, the point 
I'm trying to make is that this is too big a challenge to 
revert to sometimes the turf battles that have characterized 
the relationship between Ag and Interior.
    So I want to thank you in advance for stepping up to a 
higher standard here when it comes to working together. 
Sometimes we have major work. At seasons it could be, but I 
know they're cool, calm and mature heads in both agencies.
    I also wanted to thank Senator Murkowski for mentioning the 
study on the aviation support that's been so important in 
fighting fires. We had a tragic accident in Colorado. I 
remember working on an ongoing basis with Under Secretary Rey 
to see that the report, Mr. Jensen, was completed.
    I know Senator Murkowski and I would do anything possible 
to get that aviation strategy completed so that we know what 
future costs are going to be and the assets that we'll have to 
fight fires in the future will be as well. So anything we can 
do to help move that along we'd like to do so.
    Let me turn finally to Colorado. Senator Murkowski and I 
were talking about her experience at skiing in Colorado. I 
think now I have to go ski in Alaska next year as a way to 
support the Alaska ski industry.
    But she was astounded by the beetle kill in Colorado, 
particularly in the North central mountains. It's just 
stunning, deeply dismaying. We do, with luck, look like we may 
because of the weather patterns we've had this spring and 
summer save us from a truly catastrophic fire this year.
    We need still, though, more resources to reduce hazardous 
fuels and suppress wildfires that do occur. Ms. Dalton 
mentioned that the Agencies are working to prove their 
allocations of hazardous fuels funding and fire fighting assets 
through land, fire, FPA and other methods. Can you tell me 
whether those models and methods take the bark beetle situation 
in Colorado into account?
    I'm looking at Ms. Dalton, but also Mr. Jensen.
    Ms. Dalton. Those methods do, it is my understanding, 
provide data on a nationwide basis that's very consistent. So 
to that extent I would expect that they would. But I think Mr. 
Jensen probably can answer in more detail.
    Senator Udall. Thank you.
    Mr. Jensen. Absolutely. We expanded a little bit earlier 
here on how some of the decisions are made within the Agency 
around fuel reduction. A notion here, particularly in the case 
for Colorado is looking at the values at risk and trying to 
figure out where the investment of the limited moneys we do 
have are going to make the most affect. That is very much 
around the infrastructure of communities and protection of 
watersheds and the drinking water that flows from that.
    So we're going to need to be making the most of what 
limited resources we do have to hopefully head off the 
potential problem that we are looking at there in Colorado.
    Senator Udall. Secretary Suh, any comment in that regard?
    Ms. Suh. It's interesting that you raise Colorado in 
particular. We were just having conversations at Interior about 
doing an exercise so that a lot of the new folks to Interior 
could learn about the Office of WildLand Fire Coordination. 
Using catastrophic fire in Colorado is a potential opportunity 
for both of us to learn about the way our agencies and bureaus 
work together. As well as our state of preparedness with 
respect to some of the more pronounced problems, we have on the 
horizon.
    So we'll be actually going through this exercise in a 
couple of weeks. If you're interested in coming, we'd be happy 
to have you or any of your staff join us.
    Senator Udall. Thank you for that. Yes, I think about for 
example, the Eastern boundary of Rocky Mountain National Park 
which is one of the areas where you see almost every tree, 
every lodge pole, pine that's been killed. You then have Forest 
Service lands adjacent and then a checkerboard land ownership 
pattern of private ownership as well. There may even be some 
State forest lands and so that coordination looms all the more 
important in a setting like that.
    Then you put in the mix, of course, the statutes 
surrounding the parks and the way we're working to manage the 
National Parks. I would note that with the latest public lands 
package we passed early in this Congress that we did reach a 
life, well almost a lifetime goal for many of us which was to 
set aside Rocky as wilderness based on the Nixon administration 
recommendations. That new law though, does give us the 
flexibility to handle this situation in particular as 
appropriate.
    Mr. Jensen, you also view the Department of Agriculture and 
the ski industry concerns have been working I know with the ski 
industry to provide some additional flexibility particularly so 
the ski industry can protect within their boundaries trees that 
are particularly important, stands of trees that are 
particularly important in protecting the snow resources. Is 
that not correct?
    Mr. Jensen. Absolutely correct. Yes.
    Senator Udall. I want to commend you for that. We need to 
continue to work with the ski industry. Senator Murkowski was 
pointing out to me that in some cases the ski industry is 
actually working hard to save individual tress because they are 
so key holding snow pack, particularly at the timber line 
interface where the winds rule.
    If that snow gets blown away it not only sublimates back as 
a water vapor, but you don't have ski runs that are usable.
    Mr. Jensen. If I might add a little bit. The ski industry 
is a critical partner with/for the Forest Service and the 
Agency. Not only do they help us deliver our mission and 
provide those recreational opportunities out there for the 
public. But they also provide a great opportunity to help 
spread the message of what forests and forest management bring 
to the country.
    Wwe're, with the numbers of people that come to the ski 
resorts, we hope that we can continue that partnership.
    Senator Udall. I want to thank the panel. Senator Shaheen 
or Senator Murkowski, do you?
    Any panel member have a final comment or should we excuse 
you?
    Thank you for taking the time to come up to Capitol Hill. 
We'll now prepare for the second panel as the first panel 
departs. Thanks again.
    Our second panel, like the first panel will be testifying 
on the FLAME Act. I want to welcome first Leah MacSwords, who 
is the President of the National Association of State 
Foresters.
    Second welcome, Max Peterson, Former Chief of the Forest 
Service. It's not often we have icons that come to Capitol 
Hill, but Max Peterson is an icon. It's wonderful to see you 
here, Mr. Peterson.
    Ms. MacSwords, would you like to share your testimony with 
us?

STATEMENT OF LEAH MACSWORDS, PRESIDENT, NATIONAL ASSOCIATION OF 
 STATE FORESTERS, STATE FORESTER OF KENTUCKY, REPRESENTING THE 
      PARTNER CAUCUS ON FIRE SUPPRESSION FUNDING SOLUTIONS

    Ms. MacSwords. I can.
    Senator Udall. Thank you very much.
    Ms. MacSwords. I want to thank the committee. I'm appearing 
today on behalf of the Partner Caucus on fire suppression 
funding solutions. This was assembled earlier this year by the 
National Association of State Foresters, the Wilderness Society 
and American Forests.
    The Partner Caucus is made up of more than 100 
organizations. We advocate for a new mechanism for funding 
emergency fire suppression activities for the United States 
Forest Service and Department of the Interior. The ongoing lack 
of a sustainable fire funding is a problem on the Agency's 
balance sheets and puts the Nation's forests at great risk. The 
Partner Caucus is committed to helping Congress find a solution 
and ensuring that the Forest Service and Interior can 
accomplish their critical land management goals.
    I will address our recommendations related to S. 561, the 
FLAME Act. My testimony reflects the support of more than 70 
members of the Partner Caucus. A full list of supporting 
organizations will be submitted to the committee along with my 
official statement and a document that captures our shared 
principles on this issue.
    The cost of suppressing wildfires has grown enormously in 
recent years. Projections indicate that this trend will only 
increase. The Forest Service in particular has spent over $1 
billion per year in 5 of the last 7 years fighting fires.
    The approach today used to fund the enormous wildfire 
suppression cost is referred to as the 10-year rolling average. 
Each year an average of the amount of fire suppression over the 
last decade is the figure that determines the suppression 
budget for the coming year. The overall Agency budget does not 
expand to accommodate this ballooning figure however. Instead 
fire suppression becomes a proportionally larger percentage of 
the overall Agency budget.
    In FY 1991 the suppression was 13 percent of the Forest 
Service budget. This year it was nearly half. With budgets that 
remain essentially flat or decline from year to year, the 
Forest Service and Interior have two options to find 
suppression costs that are over and above the appropriated 
level.
    One is to request supplemental funding from Congress.
    The other is to transfer limited dollars from other 
essential Agency programs.
    Such transfers disrupt or cancel projects that could 
actually serve to drive down the cost of fire suppression over 
time. We must not continue to jeopardize the on the ground work 
that is improving the health of our forests and helping to 
protect people and property from devastating fires. Within the 
fire suppression portion of the budget catastrophic emergency 
wildfires consume 85 percent of all suppression costs and 
account for over 95 percent of all acres burned.
    Catastrophic wildfires refer to those fires that unduly 
threaten people or property or are uncharacteristic in nature. 
These are not average fires and should be treated the same way 
as other natural disaster. Costs associated with these 
extraordinary fires diminish the ability of the Forest Service 
and Interior to meet their other land management 
responsibilities.
    Remarkably there is no Federal law that mandates the use of 
the 10-year average to calculate yearly suppression costs. 
Instead it's become an Agency tradition and one that is out of 
date and no longer the best way to predict future emergency 
suppression costs. The members of the Partner Caucus recommend 
creating a partitioned wildfire suppression account to fund 
emergency fires.
    To this end we support the FLAME Act under consideration in 
the Senate which establishes the FLAME fund specifically for 
suppression of catastrophic emergency wild land fires. The 
FLAME fund will eliminate the depletion of other agency 
programs to pay for suppression by providing a sustainable 
funding source that is separate from the Agency's program 
funding. The appropriation for this special account would be 
calculated using an average of past emergency suppression 
activities rather than an average of all fire suppression 
costs.
    Each year in the height of fire season, Congress 
appropriates emergency funds to meet the skyrocketing cost of 
fire suppression. The FLAME Act would give Congress the means 
to fund emergency suppression before agencies have to take the 
drastic measure of transferring funds from other programs. We 
also recommend replacing the 10-year average with the 
discretionary budgeting process that is more predictive and 
statistically modeling approach.
    By using current models for weather, drought and fuel 
loads, as well as fire history and other data, we can better 
predict how much funding the agencies will need for non-
emergency fires. Separating the costs incurred by true 
emergencies from more predictable day to day agency fire 
responsibilities will ease a tremendous burden on the Forest 
Service and Interior. The FLAME Act will provide clear 
guidelines for funding emergency suppression by establishing 
specific accounting requirements on how the money can be spent 
and giving direction to the agencies for the budgeting of 
wildfire needs in the future.
    The contingency reserve fund proposed in the FY 2010 
President's budget and included in the House Interior 
Appropriations Package provides the money that is necessary for 
this new approach to funding emergency fire suppression 
activities. The FLAME Act can provide the framework on how the 
contingency reserve fund is spent. The FLAME Act as passed in 
the House last March was amended on the floor and several of 
the amendments significantly change the original intent of the 
bill which was to create a partitioned account to pay for only 
emergency fire costs.
    The Partner Caucus supports the FLAME Act as introduced in 
the Senate and advocates that the bill maintain its focus on 
creation of a partitioned account. The recommendations 
developed by the Partner Caucus on fire suppression funding are 
essential to solving this problem in a holistic manner. We 
believe the investment of funds into the range of agency 
programs that will have been impacted by increasing suppression 
costs is critical as well.
    In closing all members of the Partner Caucus have been 
impacted by the issue. Have a stake in assuring that the Forest 
Service and Interior can accomplish their critical land 
management goals. The agencies depend on a huge number of 
environmental organizations, State forestry agencies, the 
outdoor recreation industry, land owners, fire service, hunters 
and anglers, the timber industry, local governments and many 
others.
    We look forward to working with this committee to insure 
the passage of the FLAME Act in this Congress. I'd be happy to 
answer any questions or provide any further information as you 
see fit.
    [The prepared statement of Ms. MacSwords follows:]

 Prepared Statement of Leah MacSwords, President, National Association 
   of State Foresters, State Forester of Kentucky, Representing the 
          Partner Caucus on Fire Suppression Funding Solutions

    On behalf of the Partner Caucus on Fire Suppression Funding 
Solutions, I thank Chairman Bingaman and Ranking Member Murkowski and 
the rest of the Committee members for the opportunity to appear before 
you today. My testimony is focused solely on the section of the FLAME 
Act that establishes the FLAME fund for emergency fire suppression.
    I am president of the National Association of State Foresters, 
representing the directors of state forestry agencies in all 50 states, 
eight U.S. territories and associated states, and the District of 
Columbia. I am proud to be representing the Partner Caucus--a unique 
and diverse group of organizations dedicated to finding a new mechanism 
for funding emergency fire suppression activities for the U.S. Forest 
Service and the Department of the Interior land management agencies. 
Assembled by NASF, The Wilderness Society and American Forests in early 
2009, the Partner Caucus includes leading industry, environmental, 
outdoor recreation, and forestry organizations that all recognize the 
urgency of this problem. Attached to this testimony is the Partner 
Caucus' principles and recommendations document that includes a 
complete list of supportive organizations.* The Partner Caucus was 
created to bring attention to the imperative need to release the 
stranglehold that emergency suppression costs are having on the 
agencies' budget and programs, and the resulting negative economic and 
environmental impacts.
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
                             the challenge
    All of the nation's forests face numerous threats, including 
insects and disease, development pressures, changing climate, and 
catastrophic wildfire--meaning those wildfires that unduly jeopardize 
people and property or are uncharacteristic in nature. An ongoing lack 
of sustainable funding is yet another pressure on America's forests 
prohibiting agencies from accomplishing their management goals. On 
behalf of the Partner Caucus, I will address the combined effect of 
these last two threats: the financial impact of catastrophic fire on 
the Forest Service and Interior and the need for a comprehensive 
solution to this escalating problem.

                    A DIVERSE COALITION OF PARTNERS

    One of the major factors behind the diverse nature of the Partner 
Caucus is how broadly the challenges of fire suppression funding 
impacts the agencies' critical partners, including national and local 
environmental organizations, state forestry agencies, outdoor and 
recreation industry, land owners, hunters/anglers, timber industry, 
local governments, fire services and other groups interested in land 
management.
    We stand ready to assist Congress in identifying a new mechanism 
for funding emergency fire suppression activities.

             THE IMPACT OF WILDLAND FIRE SUPPRESSION COSTS

    The cost of suppressing fires has grown enormously in recent years 
and projections indicate that this trend will only increase as a result 
of hazardous fuels build-up, a changing climate (and thus, ecology), 
and increasingly populated wildland-urban interface areas. For example, 
the Forest Service has spent over $1 billion per year in five of the 
last seven years to extinguish fires. Fire suppression, the largest 
component of agency wildland fire management activities, rose from 13% 
of the agency's budget in fiscal year 1991 to close to 50% in 2009. 
Extraordinary emergency wildland fire suppression activities account 
for over 95% of all burned acres and consume 85% of all suppression 
costs. These are not average wildfires; they should be treated the same 
way as other natural disasters to avoid severe depletion of the 
agency's constrained budget.
    As the primary agencies responsible for wildland fire protection, 
these escalating fire suppression costs have had a detrimental effect 
on program implementation within the Forest Service and Department of 
the Interior. Due to their budgets remaining essentially flat or 
declining from year-to-year, core program budgets have been drained in 
order to sufficiently fund fires suppression at the required 10-year 
rolling average level. Although no federal law requires that the 
agencies budget for the 10-year average of fire suppression costs 
within their budget, it has become an unchallenged method of 
calculating yearly suppression costs. This is not a mandated practice; 
instead it is just a tradition, and one that is out of date and no 
longer the best way to predict future suppression costs. Most other 
agency programs are not accounted for in this way. Even with the 
diversion of funds, agencies are regularly compelled to request 
supplemental funding from Congress and are forced to transfer already 
limited dollars from other essential agency programs. Such transfers 
further reduce program budgets, leading to program disruptions, project 
cancellations and strained relationships with partners.
    All Forest Service programs are subject to transfers including 
funds from State and Private Forestry, Capital Improvement and 
Maintenance, National Forest System, and Wildland Fire Management. In 
fact, the very programs that could reduce the risk of uncharacteristic 
fires, ease the impact of fire suppression costs and more effectively 
protect people and property are also the ones that suffer two-fold; 
they are both reduced on the front end of the budgeting process as 
money is diverted to fund the 10-year average for suppression, and are 
subject to transfers of funds later in the fire season as fire 
suppression costs increase.

                         RECOMMENDED SOLUTIONS

    The Partner Caucus has developed two recommendations towards a 
solution. The first recommendation is to create a partitioned wildfire 
suppression account to fund emergency fires. This is for those truly 
emergency fires that consume most suppression appropriations-fires that 
have significantly increased the cost of suppression over the last 10 
years, led to decreases in appropriations for other agency programs, 
and on a yearly basis require Congress to supplement appropriations for 
increased suppression.
    Our second recommendation is to replace the 10-year rolling average 
with a more predictive and statistical modeling approach. One that 
utilizes current weather conditions, drought and fuel loads as well as 
fire history and other data in order to accurately estimate non-
emergency fire suppression costs. This will project the extent of 
wildland fire on the landscape and use economic modeling to predict 
funding needs. The Senate FLAME Act (S. 561) addresses both of these 
recommendations and many of the Partner Caucus organizations support 
the FLAME Act (S. 561) as introduced.
    The Act will establish a new federal fund specifically for 
suppression of catastrophic emergency wildland fires, which will move 
the nation towards a more sustainable suppression funding mechanism. 
This FLAME Fund will reduce depletion of the other agency programs to 
pay for suppression and provide a more established funding source than 
the current emergency supplemental funding. The Act will institute 
clear guidelines for funding emergency fire suppression by establishing 
specific accounting requirements on how that money can be spent and for 
agencies to budget for emergency and nonemergency fire in future years.
    These two recommendations are essential to solving this problem in 
a holistic manner. The Partner Caucus also advocates for investment of 
funds into the range of agency programs that have been impacted by 
increasing suppression costs. This must occur in order for agencies to 
accomplish their overall missions. Second, we advocate for the 
continued development and implementation of a rigorous set of measures 
to achieve cost containment; thus linking fire management activities to 
resulting fire costs. We contend that these recommendations and 
principles will move us towards a more common-sense budgeting approach 
for both the Forest Service and Department of the Interior.
    The Partner Caucus is supportive of the establishment of the FLAME 
Fund as described in the FLAME Act as introduced in the Senate (S. 
561).

                 MAINTAINING THE FOCUS OF THE FLAME ACT

    The FLAME Act as passed in the House of Representatives (H.R. 1404) 
was significantly amended on the floor. Eleven amendments were adopted 
into the Act and several of them change the intent of the bill. One 
amendment allows accessing the FLAME Fund for containment activities in 
response to crisis insect infestations to reduce the likelihood of 
wildfires. This means that the emergency partitioned account could be 
used for projects on insect-affected areas before the fire season even 
begins. The approved amendment also expands the definition of 
suppression to include activities such as hazardous fuel reduction, 
mechanical thinning, controlled burn, and a suite of non-suppression 
activities. While fire-risk reduction is critical, it is not the 
purpose of the FLAME Fund. This, and other amendments, will have 
significant ramifications not just on the FLAME Fund but also on other 
wildland fire management activities. The Partner Caucus supports the as 
introduced (S. 561) and advocates that the Senate bill move forward in 
a more streamlined fashion focusing on the need for the partitioned 
account.

                        CONTINGENCY RESERVE FUND

    In order to ensure a good government approach to funding emergency 
fire suppression activities we need rely on dedicated funding sources 
that will not limit or impact the funding or resources of other 
important agency programs. In the President's FY10 Budget Proposal, a 
Contingency Reserve Fund for fire suppression activities is outlined 
that commits funding over and above the suppression funding included in 
the Forest Service and Department of the Interior budgets. The 
Contingency Reserve Fund is available for agency use once their 
suppression budgets have been spent and after notifying Congress of 
their need to use the fund.
    The President's budget also includes annual suppression funding at 
the 10-year level for the Forest Service and Interior, noting that the 
annual funding and contingency fund should not impact other important 
agency programs. In order to fund suppression (which currently consists 
of initial attack and emergency suppression activities) at the 10-year 
average, the agencies must pull funds from other programs to meet the 
ever-increasing average. Requiring an agency to budget for emergency 
events within the discretionary appropriations process is a recipe for 
failure. No other federal agencies have to pull funding from their core 
programs in order to fund emergency events like floods and tornadoes. A 
more predictive modeling approach that balances actual conditions with 
average costs would better serve how much funding the agencies will 
need for nonemergency fires.
    The FLAME Fund would still use an average that calculates the 
amount of money needed for emergency fire suppression activities in any 
given year, but when dealing with true emergencies an average is 
probably the best approach. This is not new money. Every year, Congress 
appropriates emergency funds to address the sky-rocketing costs of fire 
suppression. FLAME would provide Congress the means to fund emergency 
suppression before agencies have to take the drastic measure of 
transferring funds from other programs.

                 COMPLIMENTARY APPROACHES TO A SOLUTION

    The Partner Caucus believes that the FLAME Fund and the Contingency 
Reserve Fund are complementary ideas. The FLAME Fund will provide the 
requirements for how the Contingency Reserve Fund monies are spent, 
allowing the public to see how much of the Forest Service and Interior 
budgets are actually being spent on emergency events. Congress can take 
action by providing funds via the annual appropriations process, the 
emergency supplemental process or use other funding sources to provide 
funding for the FLAME Fund. Both the administration and Congress have 
demonstrated their willingness to provide funds necessary for both 
initial attack and emergency fire suppression events. This is an 
efficient and fiscally responsible mechanism to the budgeting and 
authorization process.

                            CLOSING REMARKS

    I thank you for the opportunity to speak with you about this 
important issue. Representing this group of unique organizations that 
have banded together in a groundbreaking way has been an honor. The 
National Association of State Foresters and all of the organizations 
represented by the Partner Caucus on Fire Spending Solutions look 
forward to working with this committee to ensure the passage of S. 561 
in this Congress. Your attention and action toward creating a change in 
the way we pay for catastrophic wildland fires and recognizing the 
effect this has on the agencies' abilities to protect our natural 
resources and serve our public is greatly appreciated. I am happy to 
answer any questions and/or provide any further information you may 
request.

    Senator Udall. Thank you, Ms. MacSwords.
    Chief Peterson.

         STATEMENT OF R. MAX PETERSON, RETIRED CHIEF, 
                   FOREST SERVICE (1979-1987)

    Mr. Peterson. Thank you. Good morning, Senator Udall.
    Senator Udall. I know you don't really need a mic.
    [Laughter.]
    Senator Udall. But it will be helpful for those taking the 
transcript.
    Mr. Peterson. I believe it was suggested I don't always 
need a mic. I better check, particularly with my kids. Anyway, 
good morning, Senator Udall and Senator Murkowski and Senator 
Shaheen. I was sitting there I reflected back to another 
Senator Udall that I knew quite well that you're related to and 
to a Senator Murkowski that I know Lisa is related to. Senator 
Shaheen when she was still a Governor. So it's nice to be here 
with you.
    If you'll accept my testimony for the record, I'll brief it 
to you. I have great confidence in your ability to read. So I 
don't feel I need to read it to you. So I'll just brief it 
quickly.
    First, I appreciate your holding the hearing. I appreciate 
the fact that you're co-sponsor of the FLAME Act. I think it's 
a good solution to a problem that's been around for a long 
time.
    I asked Jensen to leave this chart up here. If you look at 
the average there, you find that the average never really 
happens. There's not a single year up there that's average. If 
you notice I think there's 7 years on that chart that are above 
average.
    So an average really is not a good way to handle fires. It 
gives you a sense that you must be doing something right 
because you're using the average. I doubt that we'd use the 
average on a lot of other things. We'd probably not have lunch 
the day on the average that people would eat or we would not 
like to have to be restricted to the average height of people 
or the average weight of people. So averages for fire is kind 
of ridiculous.
    A few months ago the fire retired chiefs sent a letter in 
response to the introduction of the FLAME Act. I'm happy today 
to add that that could be a--we have 6 chiefs now. The recently 
retired chief said she'd like to be on record as favoring the 
FLAME Act, Gail Kimbell, had just retired. I told her though 
when she told me that, I said you must recognize that I do have 
a particular distinction. She said, what's that? I said, I'm 
the oldest retired chief, so I'm the senior chief. So you've 
got to respect your seniors.
    It was 60 years ago next month that I went to work for the 
Forest Service in a little part of the Plumas National Forest 
in Reno, Nevada and spent 37 and a half years there. But let me 
just simply reiterate support for the FLAME Act. I think it's a 
very good act.
    I have real problems with, that I've outlined in my 
testimony, with several of the Senate provisions. I'll just 
pick out one for example. The provision says you should notify 
absentee landowners. Usually that's Forest Service policy right 
now.
    But if you go to any place in the country and you say, who 
are the absentee landowners. You find out absentee landowners 
change weekly. So you really would have to figure out a way to 
figure out a weekly list of people to notify.
    We usually used radio and TV and other kinds of publicity 
to let people know that there's going to be a prescribed burn. 
We do notify absentee land owners based on the list that we 
have. But that list may have changed 2 weeks ago.
    Providing that individual letters be sent to each one of 
those absentee landowners would be, I think, unnecessary and 
would slow down--many times when you do a prescribed burn you 
have an idea of when you plan to do it. But it may change from 
week to week because the weather may change, the predicted 
weather may change. You don't do a prescribed burn if you've 
got a prediction of a major front coming through, for example. 
You may have a time that you plan to do something and it simply 
doesn't work out.
    I've outlined in my testimony some other problems with the 
House passed version. But again we do support the Senate 
version of the FLAME Act. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Peterson follows:]

     PREPARED STATEMENT OF R. MAX PETERSON, RETIRED CHIEF, FOREST 
                          SERVICE (1979-1987)

    Mr. Chairman and Members of the Committee:
    Thank you for holding this hearing. I appreciate the efforts that 
you have made to resolve the issue of funding for emergency fire 
suppression. Resolution is vital to protecting the well-being of our 
Nation's forest resources.
    The current system of funding fire suppression on the National 
Forests and other public lands clearly does not work. It does not 
provide enough money to cover the costs, necessitating disruptive 
borrowing from on-going programs. And funding the growing costs of 
emergency fire suppression within constrained budgets has seriously 
compromised the ability of the Forest Service to carryout its statutory 
responsibilities. I know that you and the members of this committee 
recognize the problem. It is time to fix it.
    A few months ago the five retired Chiefs of the Forest Service sent 
you a letter urging passage of S. 561. The National Association of 
Forest Service Retirees signed on to a similar letter. I am here today 
to once again reiterate our support for S. 561, as introduced.
    Throughout my career with the Forest Service and until the late 
1980's, we had a simple procedure for funding fire suppression. Money 
needed for emergency fire suppression was borrowed from available trust 
funds. These trust funds contained money deposited by timber purchasers 
to cover the cost of reforestation, timber stand improvement, and slash 
disposal on cutover areas. At the end of the fire season the money 
borrowed was repaid through supplemental appropriations. It was a 
simple, straight forward approach. It worked well.
    When timber harvest levels fell in the late 1980's, the money 
available in the trust funds was no longer adequate to allow borrowing 
for the full cost of fire suppression. A decision was made to include 
funding for emergency fire suppression within the agency's annual 
appropriation. The amount to be appropriated was the 10-year average 
cost of suppression. This decision created the problem we are facing 
today. By definition an average year seldom happens. Years tend to be 
either above or below average. When costs are above average it causes 
problems. With a rising cost trend, above average years tend to be the 
rule.
    We should strive to provide a simple, straight-forward resolution 
to the funding issue. This means that (1) funding for emergency fire 
suppression must not compete with funding for the regular agency 
programs in the annual appropriation process. (2) Funding provided must 
be adequate to avoid disruption of on-going agency programs.
    S. 561, as introduced, meets these two criteria. It provides for 
the creation of a fund (the FLAME Fund) separate from the regular 
agency budget and expresses the sense of the Congress that this fund 
will be considered emergency spending and would not count for the 
purposes of Title III and IV of the Congressional Budget Act of 1974. 
Frankly, I would have preferred the creation of a government-wide 
emergency fund rather than an agency specific fund, but if the 
partitioning provided in the Act is achieved, it will work. The 
provision for periodic estimates of anticipated suppression costs will 
allow the Congress to make timely additions to the FLAME Fund to reduce 
the need for transfers from on-going agency programs.
    I have serious concerns about the amendments in the House version 
of the FLAME Act, HR. 1404, which was identical to S. 561 when 
introduced. The principal concern relates to the amendment that removes 
the sense of Congress language that appropriations to the FLAME Fund 
are considered emergency appropriations that would not count for the 
purposes of Title III and IV of the Congressional Budget Act of 1974. 
This change defeats the objective of the legislation. It will mean that 
funding for emergency fire suppression will continue to compete with 
the regular programs of the Forest Service and the agency's capacity to 
carryout its statutory responsibilities will continue to erode. This 
amendment is unacceptable.
    Another amendment to the House Bill would expand authorized uses of 
the FLAME Fund to include hazardous fuel treatments and other 
activities. This legislation is intended to provide a means of funding 
emergency fire suppression while protecting other agency programs. 
Expanding the authorized uses of the Fund to cover other desirable, but 
not emergency, activities will take away from the rationale for 
designating appropriations to the fund as emergency spending.
    A House amendment would require advance notice to adjacent 
landowners prior to a controlled burn. This has long been agency 
policy. Both public notice and individual letters are used. It needs to 
be recognized that there are many absentee land owners in and around 
our National Forests. Ownership changes frequently. Contacting every 
one in a timely manner may be impossible. I do not see the need for 
this redundant requirement in the funding legislation.
    The House amendments add many additional reporting requirements--
revision of comprehensive wildland fire strategies, review of certain 
wildfires to identify what can be done to prevent or reduce severity, a 
review to assess the quantity of greenhouse gasses produced, to assess 
the impacts on climate change, to include the presence of insect-
infested trees in determining whether a fire is eligible for funding 
under the Flame Act, to examine the effects of invasive species, to 
maximize use of National Guard resources, and to amend the definition 
of ``fire ready communities''. These are all interesting questions and 
ideas. It is not clear that the requirements for reporting or other 
changes represent the best way to address these issues. I suspect that 
many of the questions would be better addressed through well-designed 
research studies.
    Mr. Chairman, it seems to me that the reason we are concerned about 
the issue of funding fire suppression is that we want to ensure on the 
ground stewardship of our nation's forest resources. It is easy to add 
requirements for additional reporting and studies. It does not come 
free. It takes away from the resources available for getting needed 
work done on the ground. I would urge the committee to be very cautious 
about adding additional requirements to this legislation.
    Mr. Chairman, we support enactment of S. 561 as introduced. I would 
be happy to answer any questions you may have.

    Senator Udall. Thank you, Chief. I wanted to also clarify 
for the record that all the other chiefs are icons as well, all 
six of you.
    [Laughter.]
    Senator Udall. But you're the senior icon.
    Mr. Peterson. Thank you. That's kind.
    Senator Udall. On that note, let me turn to Senator 
Murkowski for questions or comments.
    Senator Murkowski. Thank you. I appreciate the testimony 
from both of you this morning. Chief, you spoke to your tenure, 
your history. You certainly remember a time when the timber 
program funded the trust funds. You could use those funds to 
pay for fire suppression then you were reimbursed by Congress.
    Mr. Peterson. Yes, that worked quite well for a number of 
years.
    Senator Murkowski. That was a process that we had before 
and it worked. Now I want to ask about using the funds in the 
FLAME Act as we're proposing, allowing hazardous fuels work to 
be done. Ms. MacSwords, you have argued against allowing the 
hazards fuels work to be funded through the FLAME fund.
    But I'm looking at this and recognizing that our costs are 
enormous when we're dealing with these catastrophic fires. If 
the mechanical treatment of hazardous fuels is less expensive 
ultimately both monetarily and really environmentally, then 
paying for the suppression of these large catastrophic fires, 
why would we not want to use a portion of the FLAME fund to 
accomplish the work?
    Ms. MacSwords. The Partner Caucus is focused on keeping the 
FLAME fund for emergency fire suppression costs. That's the 
position of the Caucus. In my role as State forester with the 
National Association of State Foresters, we do believe in the 
treatment of hazardous fuels. But for the purpose of the FLAME 
Act we'd like to see it remain cleanly focused on suppression 
funding and that there might be other means to deal with 
funding for the treatment of hazardous fuels.
    Senator Murkowski. Would you agree that we might ultimately 
need less in that FLAME fund or perhaps use less if in fact we 
were to do the prevention work? In other words make sure that 
we had the dollars in place to work to reduce the hazardous 
fuels again, this mechanical intervention.
    Ms. MacSwords. You are correct. If fuels treatment are 
performed it does reduce the cost of fire suppression which is 
the point of establishing the FLAME fund. So that the agencies 
are not borrowing from their other Forest Service and Interior 
programs that provide the funding for them to do the 
mechanicals and other fuels treatment.
    So again, the Caucus wants to keep the FLAME fund focused 
on the suppression cost so that there is no borrowing of other 
agency programs that would do the treatments.
    Senator Murkowski. From your perspective, it is not an 
objection to provide for thinning of the forest. It's not an 
objection to going in and actually doing the work. What you're 
trying to fence off are the funds that are in the FLAME Act to 
be used for suppression?
    Ms. MacSwords. Exactly.
    Senator Murkowski. So how then do we make sure that we have 
done all that we should be doing again, to reduce the hazardous 
fuels if we're not insuring that the dollars are available to 
do just that. Then if we don't do that we invariably have to 
take more from the FLAME fund to pay for the catastrophic 
fires.
    Ms. MacSwords. I think that's a question that the previous 
witnesses have testified that the Forest Service and Interior 
are looking into and providing you specific examples of what 
those two agencies do intend to do to address the fuels 
treatment on the Federal land. From a State forester 
perspective we work with those vast majority of private and 
local and State landowners to deal with the fuels treatment on 
our own lands to prevent fires from crossing over on to 
National Forest lands.
    Senator Murkowski. Chief Peterson, can I ask you your 
opinion on this?
    Mr. Peterson. Yes. I'm very sympathetic to the whole idea 
of thinning and so on. I have told people that it's like having 
your house full of newspapers. I mean, you put all your used 
newspapers in the garage and pretty soon your garage is full of 
newspapers, but you've got a rule that you can't use any of 
your money to get rid of them.
    Having all this fuel build up in the forest is a critical 
problem. Maybe some kind of partitioning with the FLAME Act or 
something would handle that. But I think until we reach the 
point that we're really going to do something about thinning 
the forest we're going to be back again and again and again 
dealing with this catastrophic situation because there's no 
solution of it short of dealing with the beetle problem in 
Colorado and some of the other major fuels build up that are 
there.
    All you've got to do fly over this country and look at it 
and know it's there. So to say it's not there and have 
bureaucratic rules or bureaucratic objections to not doing 
anything to me, that makes sense. I'm from Missouri and you've 
got to show it to me. I've seen it and I'm ready to do 
something about it.
    Senator Murkowski. We appreciate that. I think we recognize 
that when you have strong timber harvest programs that reduce 
the fuels, decrease the intensity of the fire and ultimately 
decrease the costs----
    Mr. Peterson. Right.
    Senator Murkowski [continuing]. For suppression, that it is 
a good thing. Again, not only good for the bottom line 
financially, but good environmentally.
    Mr. Peterson. I think the biomass program would have some 
major potential benefits particularly if in removing biomass 
you could use some of the material for higher use, not just for 
biomass, but for actually some products. You might be able to 
make such thing as particle board or other things out of some 
other materials. So you could get more value out of removing 
the thinning.
    But I think we need a really robust thinning program if 
we're ever going to get on top of the problem.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Murkowski.
    To begin, Chief, I want to acknowledge, I think it's 
extraordinary that as you arrived here I understood all five 
living retired chiefs supported this effort, now it's all six 
retired living chiefs. Similarly Ms. MacSwords, your 
organization helped to bring together a hundred, I believe, or 
more diverse organizations.
    Can you just describe for the committee the key reasons 
that these important groups have come together to talk about, 
discuss and come up with a position on fire budgeting and the 
FLAME Act.
    Ms. MacSwords. All of the groups that came together to work 
on this issue have a stake in what happens in our forests 
across the Nation, not only what happens on federally owned 
forest, but on privately owned forest or State and locally 
owned forest. We recognize the benefits of those forest lands 
whether it be for a forest product, for recreation, for the 
esthetic beauty of those forest, for the environmental benefits 
that those forests provide. To see those forests damaged by 
catastrophic wildfire to the extent that the other programs of 
the Forest Service and Interior that deal with the non-fire 
issues related to our forests.
    But to see those programs reduced because of the funding 
mechanism for fire was unacceptable to the organizations that 
came together. Frankly we thought if we could bring 114 
organizations together to focus on one issue, the FLAME Act, 
and the funding of wild land fire suppression, that that would 
hold a significant amount of weight to Members of Congress 
because a lot of these groups have some diverging viewpoints on 
other issues, but we came together on this one. Hopefully that 
would make an impression on you as to our willingness to work 
together because our forests are so important.
    Senator Udall. Thank you for that explanation. It's very, 
very helpful. It's inspiring that you set aside those 
differences just like Alaska and Colorado set aside the few 
differences we have to work together when it's appropriate.
    [Laughter.]
    Senator Udall. Chief Peterson, do you have thoughts on 
the--the gang of 6, maybe we should call?
    Mr. Peterson. No, I didn't intend to mention--I'm greatly 
impressed by the ability of all these partners to come 
together. I think that represents really the best in our 
country that these groups that frequently are at odds with each 
other, with the help of the State forester, did come together, 
put this statement together. So I think that's a great help in 
this whole thing, I hope.
    Senator Udall. My final question before I give you a chance 
to make any final comments or Senator Murkowski has another 
question would be to once again return, I think to comments 
that you both made about the best way forward. Ms. MacSwords, 
you talked about the House and the amendments. Chief Peterson, 
I think you alluded to the bill that was in the House and 
verses the Senate proposal.
    Would you prefer that the committee move forward with the 
Senate version of the bill or perhaps even something more 
streamlined than the Senate bill? Maybe I'll start with you 
Chief, if you had thoughts.
    Mr. Peterson. I would fully support the Senate version. I 
do not think the House version with all those amendments is the 
way to go. I think a streamline version, as the Senate bill is 
basically, is the way to go.
    Senator Udall. Ms. MacSwords.
    Ms. MacSwords. The Partner Caucus would agree. We would 
like to see a bill that focuses on creating the FLAME Act and 
keeping it as clean and uncluttered as possible.
    Senator Udall. I think with that I've exhausted all my 
questions, at least for today. Do either of you have another 
comment or any other thoughts you'd like to share with us 
before we conclude the hearing?
    Mr. Peterson. Thank you for the hearing. Thank you for co-
sponsoring legislation. Thank you.
    Senator Udall. Thank you. I think the fact that your 
comments are streamlined and to the point will be very helpful 
as the committee moves forward. The Committee on Energy and 
Natural Resources is adjourned.
    [Whereupon, at 11:45 a.m. the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Response of Patricia Dalton to Question From Senator Wyden

    Question 1. GAO repeatedly has identified and discussed the 
shortcomings of the agencies using ``acres treated'' as a performance 
measure or target. In 2003, GAO reported that the agencies were 
developing results-oriented performance measures, but from what I hear, 
they still use acres-treated as a key measure of the performance of 
their land managers. Would you please provide the Committee with your 
Office's latest assessment of the agencies' use of this performance 
measure and your current recommendation for addressing remaining 
concerns?
    Answer. Acres treated remains one of the agencies' primary 
performance measures for fuel reduction projects and, as we reported in 
2007, this measure has led the agencies to sometimes implement lower-
priority projects with low per-acre costs in order to help meet acreage 
targets.\1\ Better performance measures would assist the agencies in 
allocating fuel reduction funds and selecting projects in ways that 
reduce fire risk most efficiently and effectively.
---------------------------------------------------------------------------
    \1\ See GAO, Wildland Fire Management: Better Information and a 
Systematic Process Could Could Improve Agencies' Approach to Allocating 
Fuel Reduction Funds and Selecting Projects, GAO-07-1168 (Washington, 
D.C.: Sept. 28, 2007).
---------------------------------------------------------------------------
    As we reported in 2007, the agencies' methods for allocating fuel 
reduction funds and selecting fuel reduction projects suffer from 
several shortcomings. First, the agencies do not consistently use 
national, regional, and local-level risk assessments that 
systematically assess the likelihood of a fire occurring and the 
communities and resources at risk of damage. Second, the agencies lack 
a method for measuring the effectiveness of different fuel reduction 
treatments. And third, the agencies do not consider cost-effectiveness 
when allocating funds, primarily because they do not have data on the 
effectiveness of different types of treatments. Without developing and 
using such information, the agencies are unable to ensure that scarce 
funds are directed to areas where they can best minimize the risk to 
communities and important natural and cultural resources. As we stated 
in our testimony, the agencies recognize these shortcomings and have 
efforts under way intended to help them address them; these efforts, 
however, are likely to be long-term undertakings and therefore are 
unlikely to help the agencies improve their processes for allocating 
fuel reduction funds anytime soon.
                                 ______
                                 
       Response of Leah MacSwords to Question From Senator Wyden

    Question 1. You discussed some of your concerns regarding a 
provision that was added to H.R. 1404 that would authorize the Flame 
Fund to be used for activities such as hazardous fuels reduction. Can 
you explain in more detail why your coalition is concerned with that 
provision?
    Answer. The amendment adopted on the House floor expands the 
definition of suppression to include fire risk reduction activities, 
which can include hazardous fuels reduction. Fire risk reduction 
activities are performed when there are no fires on the ground. If 
these activities are allowed by the FLAME Act, the FLAME Fund would be 
at risk of being spent before the fire season ever begins. The Partner 
Caucus fears the bill would therefore be diverted from its original 
goal and would not solve the suppression funding crisis. Additionally, 
this amendment muddies the lines across several agency programs and 
could create reporting challenges for the agencies.
    The Partner Caucus on Fire Suppression Spending Solutions, 
comprised of more than 110 groups, rallied around easing the impacts of 
increasing fire suppression costs on all other aspects of the USDA 
Forest Service and DOI programs. Over the years, all Forest Service 
programs have been subject to transfers including funds from State and 
Private Forestry, Capital Improvement and Maintenance, National Forest 
System, and Wildland Fire Management. This includes the hazardous fuels 
reduction program and other fire risk reduction and non-fire programs, 
which are depleted on the front end of the budgeting process as money 
is diverted to fund the 10-year average for suppression and are subject 
to transfers of funds later in the fire season as fire suppression 
costs increase.
    The Partner Caucus is focused on addressing the immediate crisis 
that the ongoing lack of sustainable funding for increasing suppression 
costs have created for the agencies' and their budgets. Solving this 
challenge will allow them to meet their land management goals, 
including hazardous fuels reduction.
    Once again, The Partner Caucus on Fire Suppression Funding 
Solutions would like to thank the Committee for providing us the 
opportunity to testify in support of S. 561, the Flame Bill.
                                 ______
                                 
         Response of Jay Jensen to Question From Senator Wyden

    Question 1. We discussed at the hearing the ongoing concern that I 
and many others have had with the Forest Service's use of ``acres 
treated'' as a key measure of the performance of its land managers. At 
its heart, this may be a personnel management issue, but it has far-
reaching consequences for taxpayers, businesses, National Forest users, 
and the health of our forests. I have provided below a small sample of 
statements on this issue that provides some indication not only of what 
a significant issue this is, but also of how long it has been an issue 
and how little progress has been made by the Forest Service's 
leadership to address it. Will you specifically describe how you plan 
to address this problem and whether you will follow the recommendation 
that the agency stop using ``acres-treated'' targets and evaluations?

          ``Indeed, as the General Accounting Office determined, most 
        of the agency's so-called measures confuse quantity with 
        quality. For example, the performance measure for the hazardous 
        fuels program is the number of acres treated. This measure 
        encourages the agency's field offices to focus on the easiest 
        and least costly areas to maximize the number of acres treated 
        and, thus, show high performance. However, many of the top 
        priority areas for fuels reduction are in the urban/wildland 
        interface where the cost of treatment is the greatest. This 
        example of a poorly developed performance measure is 
        particularly troubling given the recent fires that have 
        occurred in New Mexico and other parts of the Interior West. 
        Funds for hazardous fuels reduction need to be focused on the 
        highest priority areas where critical issues of human safety 
        and property loss are the most serious. The agency must develop 
        performance measures which show not only what the agency is 
        doing but also whether it is doing it well. The Committee 
        expects to be fully consulted during the development of 
        performance measures that will be part of the agency's budget 
        for the coming year.'' Senate Committee on Appropriations, 
        Department of the Interior and Related Agencies Appropriations 
        Bill, 2001, S. Rept. 106-312 at 62-63 (June 22, 2000).

          ``To measure progress under the fuels reduction program, the 
        Forest Service and Interior are currently tracking and 
        reporting the total number of acres treated nationwide. This 
        practice, however, measures only the number of acres that 
        receive fuels reduction treatments not necessarily whether 
        progress is being made in reducing the overall risk of 
        wildfire. Recognizing this shortcoming, the Forest Service and 
        Interior are currently developing results-oriented performance 
        measures that assess the effect of these treatments in reducing 
        the risk of wildfires.'' Wildland Fire Management: Additional 
        Actions Required to Better Identify and Prioritize Lands 
        Needing Fuels Reduction at 5 (Aug. 2003; GAO-03-0805).

          ``The Panel also notes that a paradigm shift in thinking 
        about hazardous fuels reduction effectiveness is required and 
        can be started by ceasing to use acres treated as a results 
        measurement for program accomplishments.'' Large Fire 
        Suppression Costs: Strategies for Cost Management, A Report to 
        the Wildland Fire Leadership Council from the Strategic Issues 
        Panel on Fire Suppression Costs at 26 (August 26, 2004).

          ``Probably the most glaring disconnect within HFRA is the 
        acres target issue. It's the hard acres versus easy acres 
        calculations, double counting of acres and not accounting for 
        real value.'' Implementation of the Healthy Forests Restoration 
        Act, S. Hrg. 109-506 at 45 (July 19, 2006).

          ``The SAF encourages the adoption of performance measures 
        that go beyond ``acres treated'' towards more outcome-based 
        measures that focus on the reduced extent or severity of large, 
        stand-replacing wildfires, protection of high-value resources, 
        successful protection of communities at-risk, and appropriate 
        management responses to specific incidents. . . . Measuring 
        performance by acres of fuel reduction treatments has created 
        inappropriate incentives for prioritizing activities to help 
        reduce the occurrence of large stand-replacing wildfires. The 
        SAF is concerned that pressures for managers to meet targets 
        for fuels reduction treatments are likely to be directed to 
        ``easy'' acres (i.e., lowest costs and most accessible areas) 
        to meet ``acres treated'' targets and reduce unit costs, rather 
        than ensuring that funding is focused and prioritized on the 
        most at-risk acres, resources, and communities.'' Wildland Fire 
        Management: A Position of the Society of American Foresters at 
        2, 6 (June 7, 2008).

    Answer. We agree that a performance metric which tracks acres 
treated may not be the best way to measure outcomes and we welcome 
working with Congress to better define outcome-based measures of 
progress. The Forest Service is currently working to address these 
concerns through a number of tools and initiatives.
    The LANDFIRE project, which produces consistent and comprehensive 
maps and data on landscape conditions affecting wildland fires, will 
provide a baseline set of data to assess progress towards meeting 
wildland fire management goals. The completion of the LANDFIRE data set 
for the conterminous United States, Alaska, and Hawaii is expected this 
year. An ongoing effort scheduled to be completed in 2010 will update 
the LANDFIRE data set to circa 2008 and provide data to allow 
assessment of landscape changes since 2000.
    The availability of improved analytical tools and updated social 
and biophysical information (e.g. LANDFIRE) is allowing the agency to 
develop a comprehensive strategy to address the wildland fire 
situation. The comprehensive strategy will provide a broader, more 
integrated analysis of the factors influencing the wildland fire 
situation than the existing Cohesive Strategy authored in 2006 by the 
US Forest Service and the Department of the Interior. The strategy will 
provide critical information to the agency as it develops and 
implements the wildland fire management program and develops measures 
to assess program effectiveness.
    The agency is increasing its capability within the Forest Service 
Activity Tracking System (FACTS) to track the locations and extent of 
fuels treatments using Geographic Information Systems. This spatial 
capability will help the Forest Service characterize the arrangement of 
fuels treatments and provide an opportunity to assess potential 
effectiveness on a landscape basis. This is another critical step to 
understand potential effects of treatment activities.
    We have developed and are refining a fuels treatments effectiveness 
reporting program that assesses each interaction of a wildfire with a 
completed hazardous fuels treatment project. This program evaluates how 
fuels treatments affect a wildfire that starts in or burns into a fuels 
treatment. Information gained from this endeavor give us better 
information to assess the effectiveness of fuel hazard reduction 
techniques and allows us to modify future projects.
    Agency efforts, such as the Joint Fire Science Research Program, 
are helping us with the challenge of establishing quantitative hazard 
and risk metrics for planning and evaluating the potential 
effectiveness of hazardous fuels reduction treatments. These efforts 
will build the knowledge base for existing programs and tools as well 
as assist in development of an outcome-based management system.

      Responses of Jay Jensen to Questions From Senator Murkowski

    In your testimony both you and Ms. Suh suggested that S. 561 and 
the Administration's budget request for an emergency reserve fund are 
complementary. We are having some difficulty understanding that 
statement and would like you to answer the following questions and to 
provide the data we are requesting.
    Question 1. It is our understanding that large and expensive 
``catastrophic'' fires can occur at any time of year; is that your 
experience?
    Answer. While fires can be large and expensive any time of the 
year, the chart below indicates the overwhelming majority of fires and 
suppression costs are incurred in the final four months of each fiscal 
year, in June through September. It indicates that 88% of spending and 
77% of fires occurred during this timeframe. It is also important to 
note that regularly appropriated suppression funds have never been 
exhausted prior to this timeframe. Using a threshold of fires greater 
than 300 acres, in the period 2004 thru 2008, Forests have reported on 
their Individual Fire Reports fires exceeding that threshold through 
out the year. The following Table summarizes this data by month of the 
reported fire ignition date. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 2a. For each of the last 5 years, please provide a list of 
the fires that transitioned from small (less than 300 acres) to large 
catastrophic fires. Include in that data the name of the fire, the 
agency or state that managed the land that burned, the agency that lead 
the fire fighting effort, and cost of the fire.
    Answer. Refer to the enclosed spreadsheet and please note:

  <bullet> the agency or state that managed the land that burned is 
        represented by column labeled ``Ownership at Origin'';
  <bullet> the agency that led the fire fighting effort is represented 
        by column labeled ``Protection Agency '';
  <bullet> Suppression cost is the estimated Fire Suppression Funds in 
        whole dollars expended by the Forest Service. All dollars are 
        nominal, i.e. they have not been adjusted for inflation.
  <bullet> The fires listed come from the Forest Service Individual 
        Fire Report, FIRESTAT reporting system.

    Question 2b. If a reserve account is appropriated that requires 
either an emergency declaration or one that cannot be expended until 
all other suppression funds have been consumed, please help us 
understand how a ``catastrophic'' fire that occurs for example during 
May would be paid for?
    Answer. According to the FLAME Act, if this fire meets the criteria 
outlined in the Act, and was declared to be an emergency fire by the 
Secretary; it would be eligible to be funded through the FLAME fund. 
The agency would need to ensure FLAME fund monies are segregated from 
other suppression funds. At the time of the Secretary's determination, 
all funds that had previously been obligated on that fire would need to 
be identified and deobligated in the agencies financial management 
system and then be made again available for future obligation. The 
agency would also have to administratively recode each prior obligation 
that had been incurred through regular suppression funds to a FLAME 
fund code. At the field level, each resource deployed on the fire would 
need to receive a new code that ties to the FLAME fund. If, however, 
the fire does not meet the criteria outlined in the bill, it would be 
paid for out of the Fire Operations - Suppression appropriation unless 
the cumulative suppression costs at that time are projected to exceed 
the amount appropriated in the non reserve fund. As the table above 
indicates, there is a five percent likelihood that a large fire will 
occur in May, and the likelihood of a ``catastrophic'' fire occurring 
in May is much rarer than this already low probability. Reflecting the 
seasonality of fire and the need for accounting during incident 
response, the President's Contingency Reserve is available when it is 
most needed and requires no special parallel accounting process and 
structure.
    Question 3. Do you agree that under the concept of the FLAME Act 
that a fire that burns in May before all other appropriated suppression 
funds have been exhausted could not be paid for from the FLAME reserve 
account?
    Answer. According to the FLAME Act, the fire under the 
circumstances described could be funded from the FLAME fund, if the 
fire meets the criteria outlined and receives a declaration by the 
Secretary. Note that the administrative requirements listed in the 
previous response would necessarily apply.
    Question 4. If not, please explain how under the President's 
proposal such early catastrophic fires could be paid for out of the 
President's proposed emergency reserve fire suppression account?
    Answer. As indicated in the response to the previous question and 
as the table above indicates, there is a five percent likelihood that a 
large fire will occur in May, and the likelihood of a ``catastrophic'' 
fire occurring in May is much lower than this low level. Access to the 
Contingency Reserve Fund in the President's budget occurs only after 
normal suppression appropriations are exhausted and other conditions 
are met. Thus the few large fires occurring early in the year would be 
paid for out of the regular suppression account. As the season 
progressed and if the suppression appropriations were exhausted the 
Contingency Reserve Fund could be accessed to fund emergency fire 
suppression operations.
    Question 5. If 85% of suppression costs can be attributed to 2 or 3 
percent of the fires; please explain why the Administration has 
requested a reserve account equal to only 23% of the suppression 
expenditure for the resource agencies, while requesting over $1.2 
billion in normal suppression appropriations?
    Answer. The Forest Service has used the 10-year average of all 
suppression expenditures as the basis for predicting the need for the 
next appropriation cycle for Fire Operations - Suppression funding. The 
10-year average for the appropriations of FY 2010 = $1,128,505. The 
Wildland Fire Suppression Contingency Reserve for FY 2010 was 
calculated at 25% of the 10-year average equal to $282,000.
    The written testimony submitted by both departments stated: ``We 
are also aware of S. 561, the FLAME Act, introduced by this Committee, 
and H.R. 1404, introduced in the House, that aims to accomplish the 
separation between routine wildland fire management and large, intense 
fire events. We appreciate the efforts of the sponsors of the FLAME Act 
to address the current problems related to the way firefighting costs 
are funded. The Administration supports the FLAME Act if amended to 
provide for a contingency reserve, as outlined in the President's 
budget. We believe that the Administration's budget proposal can 
address the problem.''
    Question 6. Are you saying that you will not support the FLAME Act 
as introduced in the Senate unless the appropriators adopt the 
President's budget proposal for a small reserve account and a large 
appropriated suppression account?
    Answer. We are saying the FLAME Act should be amended to reflect a 
contingency reserve for the reasons outlined in the response to 
Questions 1 and 2. For 2010, $1,128,505 in suppression funding is 
requested in the President's budget to fund the predicted wildland fire 
suppression activities or the 10 year average. It is unclear whether or 
not the FLAME Act will be authorized in its current form; however the 
Contingency Reserve fund identified in the President's budget helps 
address the challenges of budgeting for fire suppression.
    Question 7. In answering questions at the hearing you indicated 
that the report on a strategy for dealing with fixed wing fire 
retardant planes had been completed some time ago and that the 
Administration would like to review it and release it by the end of the 
year. Were you referring to the calendar year or the fiscal year?
    Answer. The calendar year. For details, see answer to Question 8.
    Question 8. Given that OMB and the Department have had the draft 
plan for at least four years can you tell us why it would take until 
December to make any modifications that you believe need to be made and 
then transmit the report to the relevant committees?
    Answer. The Forest Service, in cooperation with our interagency 
partners, has completed an extensive Interagency Aviation Strategy to 
help define the need for replacement of these critical firefighting 
assets. The Department is currently using that document to frame a 
strategic discussion about the future of aviation resources. This issue 
is complex in scope and will require a substantial investment of 
federal resources. Careful coordination and planning with our partners 
in the interagency wildfire community will enhance the safety, 
efficiency and effectiveness of our future aviation fleet. The Forest 
Service and the Department anticipate working towards completing that 
discussion and review by the end of June 2010, which will be in 
accordance with our commitments made in response to the recent OIG 
audit ``Forest Service's Replacement Plan for Firefighting Aerial 
Resources.''
    Question 9. Both you and Ms. Suh indicated that cost containment of 
fire fighting is critical to an overall strategy of dealing with the 
escalating costs of fire.
    Please provide the Committee with a specific list of cost 
containment provisions that could be added to the FLAME Act (S. 561) 
that the Administration can support?
    Answer. The Forest Service has been implementing risk management 
protocols to help us address incident management strategies. We would 
be happy to discuss these efforts and the establishment of a 
Contingency Reserve as requested by the President with the Committee.
    Question 10. Over the years, most of the fire borrowing that has 
occurred has been undertaken by the Forest Service. Fire borrowing is 
rarely needed at the Department of Interior because the BLM and other 
agencies are allowed to tap into other department funds when needed. In 
the case of the Forest Service fire borrowing was not a problem until 
the late 1990's when the K-V and BD trust funds were no longer 
sufficient to cover the needed borrowing.
    Given the differing rules at the Department of the Interior and the 
Department of Agriculture please tell us why transferring the Forest 
Service to the Department of the Interior wouldn't solve the fire 
borrowing problem faced by the Forest Service?
    Answer. Moving the Forest Service to the Department of the Interior 
raises cost and workload management opportunities and issues. The 
General Accountability office (GAO) reported in February of this year, 
if the Forest Service were moved into Interior, USDA and Interior would 
need to consider a number of cultural, organizational, and legal 
factors and related transition costs. The GAO report also indicated 
that a move would provide little efficiency in the short term and 
require resolution of complex legal issues, although long-term 
efficiencies may be gained.
    Combining the fire-related functions of the Forest Service and 
Interior agencies would not have a material effect on either the 
effectiveness or the cost of firefighting because the agencies already 
operate in a unified manner. Fire management operations and 
firefighting resources and crews are integrated. There are strengths in 
our current approach; on the fire line DOI and USDA employees work 
interchangeably. Another example is the National Interagency Fire 
Center in Boise, there representatives of the five Federal agencies 
collaborate with State and local representatives on key strategies and 
decisions.
    Question 11. You indicated that the Forest Service is going to take 
a much more aggressive stance on the treatment of hazardous fuels.
    Could you provide the committee with the specific steps you will be 
directing to accomplish what you have committed to?
    Answer. We have incorporated updated information in the Hazardous 
Fuels Prioritization and Allocation System. This system allows us to 
prioritize and allocate funding to implement treatments in the wildland 
urban interface and in areas with high wildland fire potential. We have 
adjusted our national performance expectations to give our regions the 
ability to implement the complex and expensive projects that are 
required to mitigate fuel hazards in the wildland urban interface. We 
continue to develop methodologies to enable field units to locate and 
implement hazardous fuel mitigation projects that effectively change 
potential fire behavior within priority landscapes. We are increasing 
national monitoring efforts of field programs to ensure project level 
treatments are conducted in high priority landscapes.
    The availability of improved analytical tools and updated social 
and biophysical information (e.g. LANDFIRE) is allowing the agency to 
develop a comprehensive strategy to address the wildland fire 
situation. The comprehensive strategy will provide a broader, more 
integrated analysis of the factors influencing the wildland fire 
situation than the existing Cohesive Strategy authored in 2006 by the 
US Forest Service and the Department of Interior. The strategy will 
provide critical information to the agency as it develops and 
implements the wildland fire management program.
    Question 12. Senator Wyden suggested that there has been double 
counting in the reporting of forest health treatments and he further 
suggested that low priority acres that don't need treatment get treated 
again and again. You did not reject the Senator's accusation or rebut 
them.
    Do you admit to double or triple counting of prescribed burns?
    Answer. Acres that are treated by prescribed burning are counted 
only once for hazardous fuels reduction. In some cases, fuels 
treatments accomplish multiple objectives (such as wildlife habitat 
improvement and reduction of hazardous fuels). However, even in those 
cases, the fuels reduction from those treatments is counted only once.
    In some cases, more than one type of treatment must be implemented 
before wildfire potential is reduced to an acceptable level. For 
example a mechanical fuel treatment (e.g. thinning) might be conducted 
to create conditions which allow a prescribed burn to be implemented 
safely and effectively. We record accomplishments for each project 
activity that brings us closer to the final objective of mitigating 
wildfire hazard. It is important to track all of the treatments that we 
complete so that we have an objective account of how resources were 
used.
    Question 13. Do you agree that low priority acres are treated while 
higher priority acres do not get treated?
    Answer. No. The agency strives to treat the highest priority acres 
that benefit not only the hazardous fuels program, but other agency 
programs, as well. Our best opportunity to protect communities and 
valuable resources from the damaging effects of fire is to foster 
restoration of fire-adapted landscapes, reduce hazardous fuels through 
active management, aligning agency programs, including wildlife and 
watershed protection, and leveraging resources to use the fullest 
capability of the agency and its partners. By aligning all objectives 
of the agency and its partners, we can achieve multiple benefits such 
as hazardous fuels reduction, landscape restoration, and community 
protection objectives, as well.
    The Hazardous Fuels Prioritization Allocation System (HFPAS) helps 
us allocate regional funding to implement programs that treat high 
priority acres benefiting the hazardous fuels program and also 
accomplish integrated resource objectives. HFPAS places priority on the 
wildland urban interface, wildfire potential, protection of various 
resources (such as commercial timber and municipal water sources), 
potential use of residual biomass, and opportunities to coordinate 
treatments with our land management partners. Selection of fuel hazard 
mitigation projects at the field level is affected by resource and 
collaboration efforts at the local level but is expected to remain 
consistent with national priorities.
    Question 14. What steps will you undertake end the double and 
triple counting and to ensure that the highest priority acres are 
treated first?
    Answer. The agency tracks multiple entries for hazardous fuels 
treatments and reports on the acreage accomplishments each time an area 
is treated because each of those multiple entries move landscapes 
toward a desired condition. Regional allocations and targets are based 
on the Hazardous Fuels Prioritization and Allocation System (HFPAS). 
This system allows us to prioritize and allocate funding to implement 
treatments in the wildland urban interface and in areas with high 
wildland fire potential. We have adjusted our national performance 
expectations to give our regions the ability to implement the complex 
and expensive projects that are required to mitigate fuel hazards in 
the wildland urban interface. We continue to develop methodologies to 
enable field units to locate and implement hazardous fuel mitigation 
projects that effectively change potential fire behavior within 
priority landscapes. We are increasing national monitoring efforts of 
field programs to ensure project level treatments are conducted in high 
priority landscapes.

       Responses of Jay Jensen to Questions From Senator Barrasso

    Question 1. During the Senate Energy and Natural Resources 
Committee hearing on Tuesday, July 21, 2009, you and I discussed the 
U.S. Forest Service allocation of funds from the American Recovery and 
Reinvestment Act. I asked how the agency intends to make up for 
refusing to fund a single project through the U.S. Forest Service in 
Wyoming. You indicated that the agency would make an effort to address 
forest health problems in Wyoming. Yet, you failed to mention that the 
U.S. Department of Agriculture was preparing to release additional ARRA 
funds that very day, none of which will be allocated to Wyoming.
    a. Were you unaware that the Department was preparing the release 
of ARRA funds at the very moment that you and I were discussing the 
issue? Please explain how this breach of the duties of your office came 
to pass.
    Answer. ARRA projects have been grouped based on the kind of work 
being accomplished and funding is being released for each category of 
work. In addition to the announcement on July 22, 2009, that $180,000 
in funds was sent to Wyoming for restoration of an historic facility in 
Cody; we provided an additional $6.375 million to the State. 
Specifically, $950,000 in capital improvement and maintenance funds 
have been approved for facilities projects. In addition, $5.425 million 
in wildland fire management funds have been approved for hazardous 
fuels reduction projects - $3.525 million for work on Federal land, and 
$1.9 million for work on State and private lands.
    Question 2. After conclusion of the Senate Energy and Natural 
Resources Committee hearing on fire preparedness, and following the 
U.S. Department of Agriculture's release of $274 million in ARRA funds, 
none of which will be spent in Wyoming, the Department also released 
information increasing the index of fire danger on national forests in 
Wyoming.
    a. Were you unaware that national forests you hold oversight duty 
for and upon which you were commenting on that very day were suffering 
increased fire danger?
    Answer. ARRA funding, as delivered by Congress, has a primary focus 
on areas of economic distress, as measured by unemployment indicators. 
Taking into account Wyoming's long-term unemployment, wildfire, and 
Forest health risks resulted in $5.425 million being allocated to the 
State to address hazardous fuels reduction and ecosystem restoration.
    In addition to ARRA funds, annual program funds are allocated to 
address high priority wildland fire situations. These funds allow us, 
in coordination with our partners, to prepare for wildfire incidents 
and to reduce hazardous fuels on federal, state and private lands. For 
fiscal year (FY) 2009, the Rocky Mountain Region, including Wyoming, 
received $28 million for fire preparedness and $21 million for 
hazardous fuels reduction on federal lands. Nearly $5 million was also 
provided to the region for fire assistance grants on state and private 
lands. An additional $18 million of FY 2008 supplemental funding was 
provided to the region in 2009 for fuels reduction activities ($5 
million on federal lands and $13 million on state and private lands).
    Question 3. Is the U.S. Department of Agriculture aware of the 
unprecedented forest health event occurring in Wyoming due to bark 
beetle infestation?
    Answer. Yes. The bark beetle outbreak that is occurring throughout 
the western states affected nearly 8 million acres in 2008. In Wyoming, 
more than 1.1 million acres of pine forests were impacted by the 
mountain pine beetle. Older, dense and homogeneous stands, combined 
with recent droughts and warmer temperatures, have favored bark beetle 
population increases. The extent of infestations precludes widespread 
treatments. The Forest Service and state partners are focusing on 
treatments in high priority areas such as recreational areas, water 
sources and ecologically significant areas. Forest Service has funded 
management actions to reduce forest susceptibility to beetle outbreaks 
(such as reducing stand density and managing for greater diversity of 
age-class, size and species), protect high value trees (by application 
of registered pesticides, attractants or anti-attractants), and promote 
safety along roads and power line rights-of-way. The Bark Beetle 
Incident Management Team, established in the Forest Service's Rocky 
Mountain Region, coordinates activities to reduce hazardous fuels, 
capture the commercial value of trees to the maximum extent possible 
(i.e., timber sales and stewardship contracts), spraying trees in 
campgrounds, and removal of hazardous trees in developed recreation 
areas, along roads and trails.
    Question 4. Is the U.S. Department of Agriculture aware of the 
increased danger of catastrophic fire, erosion and other ecological 
threats due unchecked to bark beetle infestation?
    Answer. Yes, see response to question 3.
    Question 5. Given that the U.S. Department of Agriculture has not 
dedicated any ARRA funds, is it the position of the U.S. Department of 
Agriculture that the fire threat in federal forests in Wyoming is not a 
priority for the Administration?
    Answer. See answer to question 2a.
    Question 6. Please provide details of where and when the people of 
Wyoming will see on-the-ground results of additional resources 
dedicated by the U.S. Department of Agriculture to combat forest health 
threats?
    a. What additional resources will be provided?
    Answer. ARRA funding is being allocated to Forest Service field 
offices and partners, including State Foresters, within days of being 
released. Field office personnel and partners then prepare the 
necessary contracts, grants and agreements to get the work started. 
Based on the funding allocations discussed in questions 1 and 2a, 
Wyoming residents should see related work starting within the next few 
months and continuing for one to two years into the future. ARRA funds 
represent only a portion of the Forest Service budget. Through the 
Forest Service's other programs, much more work is being conducted to 
combat forest health threats and wildfire. Our Rocky Mountain Region is 
working closely with Wyoming State Forester Bill Crapser to address 
forest health issues in the State. We will continue to work in 
partnership to aggressively manage these concerns.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

             Questions for Rhea Suh From Senator Murkowski

    Question 1. At the hearing you invited the Senators and their staff 
to attend a session to examine the development of budgets to address 
the forest health crisis in Colorado.
    Would you please provide me logistical details on the time and 
place for that exercise so I can ensure my staff has the opportunity to 
observe those meetings? And thank you for your kind offer.
    Question 2. In your testimony both you and Mr. Jensen suggested 
that S. 561 and the Administration's budget request for an emergency 
reserve fund are complimentary. We are having some difficulty 
understanding that statement and would like you to answer the following 
questions and to provide the data we are requesting.
    It is our understanding that large and expensive ``catastrophic'' 
fires can occur at any time of year; is that your experience?
    Question 3. For each of the last 5 years, please provide a list of 
the fires that transitioned from small (less than 300 acres) to large 
catastrophic fires. Include in that data the name of the fire, the 
agency or state that managed the land that burned, the agency that lead 
the fire fighting effort, and cost of the fire.
    If a reserve account is appropriated that requires either an 
emergency declaration or one that cannot be expended until all other 
suppression funds have been consumed, please help us understand how a 
``catastrophic'' fire that occurs for example during May would be paid 
for?
    Question 4. Do you agree that under the concept of the FLAME Act 
that a fire that burns in May before all other appropriated suppression 
funds have been exhausted could not be paid for from the FLAME reserve 
account?
    Question 5. If not, please explain how under the President's 
proposal such early catastrophic fires could be paid for out of the 
President's proposed emergency reserve fire suppression account?
    Question 6. If 85% of suppression costs can be attributed to 2 or 3 
percent of the fires; please explain why the Administration has 
requested a reserve account equal to only 23% of the suppression 
expenditure for the resource agencies, while requesting over $1.2 
billion in normal suppression appropriations?
    Question 7. The written testimony submitted by both departments 
stated: ``We are also aware of S.561, the FLAME Act, introduced by this 
Committee, and H.R. 1404, introduced in the House, that aims to 
accomplish the separation between routine wildland fire management and 
large, catastrophic fire events. We appreciate the efforts of the 
sponsors of the FLAME Act to address the current problems related to 
the way firefighting costs are funded. The Administration supports the 
FLAME Act if amended to provide for a contingency reserve, as outlined 
in the President's budget. We believe that the Administration's budget 
proposal can address the problem.''
    Are you saying that you will not support the FLAME Act as 
introduced in the Senate unless the appropriators adopt the President's 
budget proposal for a small reserve account and a large appropriated 
suppression account?
    Question 8. Both you and Mr. Jensen indicated that cost containment 
of fire fighting is critical to an overall strategy of dealing with the 
escalating costs of fire.
    Please provide the Committee with a specific list of cost 
containment provisions that could be added to the FLAME Act (S. 561) 
that the Administration can support?
    Question 9. Over the years, most of the fire borrowing that has 
occurred has been undertaken by the Forest Service. Fire borrowing is 
rarely needed at the Department of Interior because the BLM and other 
agencies are allowed to tap into other department funds when needed. In 
the case of the Forest Service fire borrowing was not a problem until 
the late 1990's when the K-V and BD trust funds were no longer 
sufficient to cover the needed borrowing.
    Given the differing rules at the Department of the Interior and the 
Department of Agriculture please tell us why transferring the Forest 
Service to the Department of the Interior wouldn't solve the fire 
borrowing problem faced by the Forest Service?

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: This letter expresses our support for S. 561--
the Federal Land Assistance, Management and Enhancement Act (FLAME 
Act).
    The existing system for financing wildland fire suppression on the 
public lands simply does not work. It has resulted in intolerable 
reductions in the capacity of the U.S. Forest Service to carryout its 
important missions in the management of the National Forest System, 
Research, and State and Private Forestry. It is essential that funding 
for the rising cost of wildland fire suppression be separated from the 
regular budget of the agency.
    Fortunately, you and the other sponsors of the FLAME Act have 
recognized the problem. We believe this legislation, coupled with the 
funding outlined in the President's 2010 budget will stop the decline. 
This will permit the process of rebuilding the capacity of the Forest 
Service to provide proper stewardship for our Nation's forests and 
grasslands to begin.
    A key element in the implementation of the FLAME Act is the 
declaration that a wildland fire is eligible for funding from the FLAME 
Fund. It is essential that responsibility for this determination be 
delegated to line officers on-the-ground. Only they are in a position 
to observe fire behavior (intensity, rate of spread, predictability), 
evaluate fuels (type, loading, and moisture content) and predict likely 
outcomes. They are also in the best position to recognize and evaluate 
the threat to lives, property, and natural resource values.
    Mr. Chairman, we appreciate the effort that you and the other 
sponsors of this legislation have devoted to this issue. It is 
important that this funding issue be resolved this year. We urge 
enactment of the FLAME Act.
            Sincerely,
                                           R. Max Peterson,
                                  Chief, Forest Service, 1979-1987.

                                         F. Dale Robertson,
                                  Chief, Forest Service, 1987-1993.

                                          Jack Ward Thomas,
                                  Chief, Forest Service, 1993-1996.

                                        Michael P. Dombeck,
                                  Chief, Forest Service, 1997-2001.

                                          Dale N. Bosworth,
                                  Chief, Forest Service, 2001-2007.
                                 ______
                                 
                        International Code Council,
                                      Government Relations,
                                     Washington, DC, July 21, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 
        Washington, DC.
    Dear Senators Bingaman and Murkowski: Thank you for convening the 
hearing today on wildland fire issues, to call attention to this 
critically important issue.
    While the issue of wildland fire should never be set aside, the 
timing is near perfect to again remind and ignite public and political 
interest in the matter. Billions of dollars are being spent annually to 
protect the lives and infrastructure of the more than 100 million 
people, in 65,000 communities, living in wildfire prone areas (the 
wildland/urban interface, or WUI).
    The International Code Council (Code Council) is the proactive 
leader in promoting WUI fire community planning as well as wildfire/
urban interface code adoption. The Code Council has a solid working 
relationship with over 50 national organizations that support working 
together ont his important issue. We publish the only code that deals 
directly with this issue, the 2009 International Wildland-Urban 
Interface Code (IWUIC).
    In an effort to evaluate the effectiveness of current WUI efforts, 
the Code Council took the lead in establishing the National Blue Ribbon 
Panel on Wildland/Urban Interface to evaluate current fire prevention 
programs and education. The Panel found that very few homeowners and 
communities are equipped with appropriate knowledge or plans to handle 
a wildland fire crisis. Current efforts by government agencies, states 
and local jurisdictions, while beneficial, have not shown substantial 
reductions int he numbers of fires, homes destroyed or costs incurred.
    The Code Council promotes the adoption and enforcement of building 
and fire safety codes that will better equip WUI homeowners during a 
fire event. Currently, less than 10% of WUI communities have any kind 
of fire code. The Code Council wishes to promote code adoption, 
enforcement and better inter-agency relations between the private 
sector, local, state and federal agencies.
    The Code Council is available to the Committee and its staff at any 
time to provide information and resources to help deal with this issue. 
If the Committee staff would like complimentary copies of the 2009 
International Wildland-Urban Interface Code, please contact me.
            Best Regards,
                                            Sara C. Yerkes,
                                             Senior Vice President.
                                 ______
                                 
Statement of Casey Judd, Business Manager, on behalf of the Nationwide 
 Membership of the Federal Wildland Fire Service Association, Inkom, ID

                              INTRODUCTION

    Mr. Chairman, Ms. Murkowski, members of the Committee and 
interested parties, we are proud and honored to offer this written 
testimony on behalf of our Nation's federal wildland firefighters 
employed by all five federal land management agencies. Further, we look 
forward to a renewed interest in wildland firefighter issues with the 
change in Administration, the selections of Secretary Vilsack and 
Secretary Salazar along with Deputy Undersecretary for Natural 
Resources and Environment, USDA, Mr. Jay Jensen.
    Since 2006, the FWFSA has been afforded the honor and opportunity 
to provide both written and oral testimony before this committee and 
others from the perspective of the true experts in wildland 
firefighting.the firefighters. Our organization boasts a diverse 
membership inclusive of those occupying all fire positions in all five 
land management agencies from entry-level firefighter to Fire 
Management Officer (FMO) and all others in between. This diversity has 
afforded us the opportunity to educate Congress on the realities ``in 
the field'' of the land management agency fire programs. Not only have 
we previously identified issues facing our firefighters, we have also 
offered workable solutions to effect positive change and make the fire 
programs not only stronger but more efficient and cost effective for 
the American taxpayer.

                        WILDLAND FIRE MANAGEMENT

    Noting the new Administration and leadership at the Department of 
Interior and Department of Agriculture, the testimony provided jointly 
by DOI & the USDA reads eerily similar to testimony provided by 
previous Administration officials over many years.
    A reference to similar levels of resources as in 2008 should be 
cause for concern. Although 2009 has in fact been relatively mild so 
far, 2008 saw a staggering 1000+ fire starts over just a few days in 
Northern California alone. Despite ``strategic centralized management'' 
and the use of a variety of scientific models, many orders for federal 
wildland firefighting resources went unfilled. We have previously 
testified to the lack of resources in preparation of the fire season 
and have provided members of this committee with previous years' 
(inclusive of 2008) ``unable to fill lists'' (UTFs) from Geographic 
Coordination Centers (GACC). During the initial years of the National 
Fire Plan and the ``build up'' to the Most Efficient Level (MEL) of 
resources, even heavy fire years saw UTF lists only a few lines long. 
In recent years, inclusive of 2008, the lists were pages and pages long 
indicating a clear lack of resources needed to meet the wildfire 
challenge.
    This has not changed for 2009. In fact federal wildland 
firefighters continue to leave the federal system for other fire 
agencies for greater pay & benefits. The loss of these firefighters and 
the Agency(s) failure to address them were brought to the attention of 
Senator Feinstein and others in early 2006 and again in person in 
December of 2007 by the FWFSA, referring to the Forest Service fire 
program in California as ``imploding.'' As a result of the data and 
information provided to Congress by the FWFSA, Senator Feinstein and 
others not only demanded that the Forest Service address the 
firefighter retention issue, Congress also appropriated $25 million for 
retention programs.

                  CLIMATE AND WILDLAND URBAN INTERFACE

    Historically, Congress has relied on ``experts'' to explain the 
skyrocketing costs of wildfire suppression. Oddly enough, more often 
than not, these experts have not included those that actually perform 
the job of wildland firefighting. Experts providing insight have 
included many with PHDs, members of ``Think Tanks'' etc., who, by and 
large, suggest that climate and WUI are the main causes of wildfire 
suppression cost increases.
    With all due respect to these experts, firefighters disagree on the 
catalysts for increased suppression costs. While we agree that climate 
and WUI are factors, we believe that it is fire program policy and 
management that is the primary cause of needless suppression costs and 
the oft sought after Emergency Supplemental Appropriation. These fire 
program policies and the management thereof have caused suppression 
costs to spiral out of control to the point that the 10-year average 
for wildfire suppression used in the budget formulation has been 
artificially inflated and rendered useless as a tool for proper 
budgeting. We are unclear as to whether the reference to ``management 
framework'' in the testimony of the DOI and USDA as it relates to 
factors leading to rising costs is similar to what we are referencing.

                      PROGRAM POLICY & MANAGEMENT

    The Forest Service is the largest employer of federal wildland 
firefighters. As such we will utilize its fire program policies and 
management as a basis for our explanation for rising costs.
    The Forest Service is in the midst of an identity crisis. The 
agency has now had 3 different Chiefs in the last three years. As a 
land management agency, the leadership instinctually holds close to its 
land management agency role. As a result, despite being well into the 
21st century and employing the largest fire department in the world, 
the Agency leadership has held fast to archaic pay and personnel 
policies with respect to its firefighters and continues to try and 
manage the fire program as it did 30-40 years ago despite the 
increasing complexities.
    It is clear that the Western United States is home to the longest 
wildfire seasons (yearlong), the most ferocious, dangerous and deadly 
wildfires in history. As a result, Forest Service firefighters in these 
western states, especially California, have, with little help 
historically from the Agency leadership in Washington, done what was 
necessary of any fire organization, progress. This progress has been 
absolutely critical for dealing with today's wildfires and multi-agency 
cooperation yet has been repeatedly criticized by Agency leadership. 
Rather than recognizing it for what it is, progress, Forest Service 
leadership has considered such actions an effort by FIRE to break away 
from the land management agency. As a result, most Forest Service 
firefighters see policy changes in the fire program as a way for the 
leadership to ``rein in'' firefighters.

                              CONSEQUENCES

    The management of the Forest Service fire program has created a 
vicious cycle resulting in the wasting of hundreds of millions of tax 
dollars on suppression costs, namely expensive, un-necessary non-
federal resources.
    First and foremost, fire program policies and the management 
thereof, inclusive of the control of the fire preparedness, suppression 
and hazardous fuels budgets, is the domain of Agency ``Line Officers'' 
most of whom have little to no wildfire experience or expertise. In 
today's day and age with the complexities of wildfires, it is 
unconscionable for those with such limited experience or expertise to 
be managing such a significant program and making policies for 
firefighters.
    Such a situation would be tantamount to any major metropolitan city 
in the nation having its City fire department managed by the City's 
Parks & Recreation Department. It simply makes no sense.
    The consequences of these Line Officers having control over fire 
budgets is that many of the dollars appropriated by Congress for fire 
preparedness, fire suppression and hazardous fuels reduction do not end 
up being utilized for the purposes intended by Congress.
    The irony is that the same voices who complain about budget 
transfers to pay for FIRE, are the same voices who skim significant 
dollars off the top of these budgets to pay for many non-fire projects.

                 THE EFFECTS ON THE FIRE SEASON & COSTS

    Several significant issues have come to a confluence since 2006. 
Many firefighters have left the agency for better pay and benefits or 
retired early, exit interviews indicating they are fed up with the 
management of the fire program by those with little fire experience.
    In turn, the Agency has done nothing to address the archaic pay & 
personnel policies that have encumbered these firefighters for over two 
decades. More importantly, even after the FWFSA and the National 
federation of Federal Employees (NFFE) have brought these issues to the 
forefront, the Agency has done little to stem the tide of losses of 
firefighters. Thus for the past few years, at the beginning of the 
season there are fewer federal fire fighting resources available with 
no effort on the part of the Agency to rectify the situation.
    Add to that the use of FIRE funds for non-fire projects by Line 
Officers. The use of fire preparedness funds obviously reduces the 
federal wildland fire fighting resources in the field as envisioned by 
the National Fire Plan. The use of hazardous fuels dollars means less 
acres treated . . . a well documented issue with this and other 
committees.
    Consequently as the fire season progresses, the federal resources 
that should be available are not. The only alternative is the costly 
alternative . . . over-reliance on significantly more expensive non-
federal resources. As a result of these more expensive resources being 
used, the fire suppression budget is exhausted by the end of summer 
with typically October & even November being heavy fire months in 
California.
    As a result, the Agency annually comes to Congress with its hand 
out for a supplemental emergency appropriation in the neighborhood of 
half a billion dollars, suggesting to Congress that it's been a tough 
year. Although the costs and consequences of non-federal fire resources 
has been addressed by the FWFSA for several years, our position has 
recently been validated in the FISCAL YEAR 2008 LARGE-COST FIRE 
INDEPENDENT REVIEW chartered by the U.S. Secretary of Agriculture and 
issued this month (July 2009).
    Losses of federal wildland firefighters on their own volition and 
diversion of fire funding by non-fire Line Officers has led to this 
over-reliance on non-federal resources. The FWFSA has been asked by 
several in Congress why the Agency(s) would do business this way. Our 
response is simple; little to no congressional oversight. With no 
oversight, there is little incentive for either the federal agencies or 
non-federal fire agencies to be cost-effective. In fact, not only does 
the federal government pick up the vast majority of costs associated 
with these wildfires, the Fire Management Assistance Grant Program 
(FMAGs) administered through FEMA provides non-federal fire agencies 
with a disincentive to be cost effective. The lack of incentives to be 
cost effective is also outlined in the aforementioned Large-Cost fire 
report.
    It has only been recently, within the past 3 years, that some in 
Congress have started to ask tougher questions about the fiscal 
management of the fire programs. Despite these tougher questions, 
firefighters see little change in Business as Usual. When agencies come 
before Congress in the Fall for an Emergency Supplemental 
Appropriation, few questions are asked.
    For several years the FWFSA has sought to engage the leadership of 
the Forest Service in an effort to work with the agency to make its 
fire program stronger yet more efficient and cost-effective. We have 
not only identified the issues, we have also offered simply solutions 
to many complex problems.
    We are hopeful that with Secretary Vilsack's selection of Tom 
Tidwell to replace Chief Kimbell, the FWFSA and its firefighters will 
no longer be summarily ignored by the agency leadership.

                               SOLUTIONS

    The Agency must acknowledge it has the biggest and best fire 
organization in the world and recognize that it needs to be progressive 
and prepared for the wildfires of the future. In order to do this they 
must address long-standing fundamental issues of pay, benefits and 
working conditions for its firefighters in order to retain those 
firefighters that the American taxpayer has a substantial investment 
in.
    Further, FIRE funding should be used specifically for its intended 
purpose. The 10-year average should be abolished for budgetary 
purposes. Instead, changes to the organizational structure of the FIRE 
program must be made. The Agency Fire & Aviation Management Director 
(FAM) along with his/her Regional FAM and Forest FIRE Planners and FMOs 
should be tasked with not only making FIRE policy but allocating the 
FIRE budgets. We are convinced that unless FIRE personnel are in charge 
of developing and implementing FIRE policy and administering FIRE 
funding, we all will continue to see skyrocketing suppression costs.
    Non-federal fire suppression costs should be cut over a 3 year 
pilot period: 10% the first year; 25% the second year and 35% the third 
year.
    The idea is that as we retain federal wildland firefighters through 
the reform of pay & personnel policies, we make the federal response to 
wildfires stronger. Further, having well qualified FIRE personnel 
making FIRE policy and administering the FIRE budgets will no doubt 
lead to better fiscal management. Additionally, ensuring fire 
preparedness funding is used specifically for that purpose, the proper 
number of federal resources (proper spending and firefighter retention) 
as envisioned by the National Fire Plan will be in place to keep fires 
small. Having the proper number of less-expensive federal resources in 
place will allow the agencies to reduce their over reliance (we are not 
advocating the wholesale elimination of non-federal resources from the 
wildfire landscape) on higher-priced resources thus saving the American 
taxpayer significant sums in suppression spending. That in turn will 
reduce the need for an annual Emergency Supplemental Appropriation and 
save even more money.
    Such changes and reforms will no doubt be met with resistance by 
some in the Agency. However we remain convinced that Congress has an 
obligation to the American taxpayer to ensure its federal agencies and 
the management of huge sums of money are done in the most effective and 
efficient manner. The status quo will only continue to allow for higher 
suppression costs, more excuses and more promises that the Agency is 
adopting cost-cutting measures which never fully materialize.
    We remain hopeful that Congress and the new leadership at DOI, USDA 
and the Forest Service will provide the honor and opportunity for their 
Nation's federal wildland firefighters to be an integral part of 
progressive change not only for firefighters but for those they risk 
their lives for so often.
    Submitted in Memory of Thomas Marovich-Wildland Firefighter lost on 
July 21, 2009.


</pre></body></html>
